    Department of Defense
  Office of Inspector General
     400 Army Navy Drive
      Arlington, VA 22202
This report is available online at:
         www.dodig.mil


                                                                           United States Department of Defense 

                                                                           Office of Inspector General




                                                                             Contingency Contracting:

                                                                             A Framework for Reform

                                        DEPARTMENT OF DEFENSE
                                                                                    Report No. D-2010-059

                                              Hotline                                   May 14, 2010

                                      1-800-424-9098 • DSN: 312-664-1151
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
COR                           Contracting Officer Representative
COWC                          Commission on Wartime Contracting
DCAA                          Defense Contract Audit Agency
DCIS                          Defense Criminal Investigative Service
DCMA                          Defense Contract Management Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
IG                            Inspector General
QASP                          Quality Assurance Surveillance Plan
SPO                           Special Plans and Operations
U.S.C.                        United States Code
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DR IV E 

                           AR LIN GTON, V IRG INIA 22202- 4704 





                                                                        May 14, 2010

MEMORANDUM FOR DISTRIBUTION

SUBJECT:      Contingency Contracting: A Framework for Reform (Report
                No. D-20 10-059)

We are providing this report for your information and use. We did not issue a draft
repolt. This report is based on a body of work performed by the DOD Office ofInspector
General related to DOD's contingency contracting that was issued from October 1, 2007
through April 1, 2010. This repOlt contains no reconIDlendations; therefore, we do not
require written comments.

Questions should be directed to Bruce Burton at (703) 604-9071.




                               ~ /!1P;f,'J,"-' /0t0
                               Deputy Inspector General
                                     for Auditing
DISTRIBUTION:
SECRETARY OF THE ARMY
SECRETARY OF THE NAVY
SECRETARY OF THE AIR FORCE
ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS, AND
   TECHNOLOGY)
ASSISTANT SECRETARY OF THE NAVY (RESEARCH, DEVELOPMENT, AND
   ACQUISITION)
ASSISTANT SECRETARY OF THE AIR FORCE (ACQUISITION)
UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
   LOGISTICS
DIRECTOR, DEFENSE PROCUREMENT AND ACQUISITION POLICY
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
   OFFICER
COMMANDER, U.S. CENTRAL COMMAND
   COMMANDER, U.S. FORCE-IRAQ
   COMMANDER, MULTI-NATIONAL SECURITY TRANSITION COMMAND­
   IRAQ
   COMMANDER, JOINT CONTRACTING COMMAND-IRAQ/AFGHANISTAN
COMMANDER, COMBINED JOINT TASK FORCE-101
COMMANDER, NATO TRAINING MISSION-AFGHANISTAN/COMBINED
   SECURITY TRANSITION COMMAND-AFGHANISTAN
CHIEF, NATIONAL GUARD BUREAU
ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND INFORMATION
   INTEGRATION/DOD CHIEF INFORMATION OFFICER
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
DIRECTOR, JOINT STAFF
DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE LOGISTICS AGENCY
DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
AUDITOR GENERAL, DEPARTMENT OF THE NAVY
AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE
SPECIAL INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION
SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
OFFICE OF MANAGEMENT AND BUDGET
GOVERNMENT ACCOUNTABILITY OFFICE
Report No. D-2010-059 (Project No. D2010-D000AS-0126.000) 	                        May 14, 2010


              Results in Brief - Contingency Contracting:
              A Framework for Reform

What We Did                                                   1.		   Requirements,
Our overall objective was to provide DOD field                2.		   Contract Pricing,
commanders and contract managers with                         3.	    Oversight and Surveillance,
information on systemic contracting issues                    4.	    Property Accountability, and
identified in DOD Inspector General products                  5.		   Financial Management.
issued from October 1, 2007 through April 1,
2010, that involve high-risk areas of contract         Additionally, we reviewed the 19 fraud
management and identify actions that need to be        investigations, shown on page 42, and
taken to correct these issues for future               determined that the criminal offenses occurred
contracting. We reviewed 34 reports and                during the award and contract administration
19 Defense Criminal Investigative Service              phases.
investigations related to contracting in
contingency operations with the primary focus          The “Key Aspects of the Contracting Process”
being work done in Iraq and Afghanistan.               flowchart on page iii and the “Fraud Indicators
Defense Criminal Investigative Service                 and Poor Practices in Relation to the
investigations were included separately in             Contracting Process” flowchart on page iv are
Appendix C because the fraud investigations are        useful resources to DOD field commanders and
distinctly different from the auditing process.        contract managers. These flowcharts provide:
We also summarized the DOD Response to the                 	 a useful snapshot of key contract issues
Interim Report, “At What Cost-Contingency                      and fraud indicators related to
Contracting in Iraq and Afghanistan,” by the                   contingency operations, and
Commission on Wartime Contracting in Iraq                  	 a visual tool for Commanders and
and Afghanistan. Our summary of the DOD                        contracting officers to assess the
response to the Commission on Wartime                          strengths and weaknesses in their
Contracting in Iraq and Afghanistan was                        contracting approaches and real-time
included to show the progress and focus DOD                    awareness of areas that might be
has on contingency contracting. Their work and                 susceptible to fraud and contributors to
ours have a distinct correlation because we both               waste and abuse.
seek to improve program and contract
management.

What We Found
The DOD IG issued 34 reports and completed
19 investigations of fraud from October 1, 2007
through April 1, 2010, that pertain to the
contracting process. We reviewed the 34
reports and found 10 systemic issues related to
contracting deficiencies with the top 5 issue
areas being:                                           Source: Army Photograph




                                                   i
Report No. D-2010-059 (Project No. D2010-D000AS-0126.000)                         May 14, 2010

The “Key Aspects of the Contracting Process”            What Needs To Be Done
flowchart shows the contracting process in four
                                                        The effectiveness of contractor support of
distinct phases: pre-award, award, contract
                                                        expanded U.S. operations in Afghanistan and
administration, and contract closeout. Each
                                                        other contingency operations could be
phase provides actions that should be taken
                                                        compromised by the failure to extract and apply
during program and contract management. The
                                                        lessons learned from Iraq. As we surge into
red text indicates the systemic issue areas
                                                        Afghanistan, it is critical that we review the
identified in our audits.
                                                        shortfalls identified and develop a framework to
                                                        achieve better contracting for contingency
The “Fraud Indicators and Poor Practices in
                                                        operations in Afghanistan and future
Relation to the Contracting Process” flowchart
                                                        contingencies. Consequently, we have
identifies examples of fraud indicators and poor
                                                        identified necessary steps to improve contracts
contract administration practices that may occur
                                                        in current and future contingency operations,
in the first three contracting process phases
                                                        based on our review of the reported deficiencies.
(pre-award, award, and contract administration).

Use of this information should lead to
immediate improvements in the environment of
contingency operations. Commanders and
contract managers can use these charts to assess
their contracting operations, to identify areas
that could be improved, to ensure the best
contracting practices are implemented, and to
identify vulnerabilities to fraud, waste, and
abuse.

What Has Been Done Based
On Our Audits
We compiled the recommendations made for
each of the 5 top issue areas. Specifically, our
recommendations were for management to:
     ensure all requirements are fully defined
       and properly compete all requirements;
     ensure a fair and reasonable price is
       received;
     develop a Quality Assurance
       Surveillance Plan and properly designate
       a Contracting Officer Representative;
     establish records and maintain account-
       ability for Government property; and
     review all invoices and reconcile the
       services and products received.




                                                   ii
                                 Pre-Award                                                                 Award                                                         Contract Administration*                                           Contract Closeout


     Requirements                  Acquisition                                                                                                                                        Acceptance of                                                  Contract
                                                              Solicitation           Source Selection                      Award                   Contract Monitoring                                                  Payments
     Development                    Planning                                                                                                                                         Supplies/Services                                               Closeout


  - Contracting activities    - The acquisition plan     - A solicitation is a       - The objective of source     - Contracting officers        - Contracting officers perform      - Acceptance of              - Payments made by the     - When the contractor has
  and their customers         is a comprehensive         document publicized for     selection is to select the    must provide for full         oversight and surveillance to       contractual supplies or      Government should          satisfactorily completed
  should consider both        plan for fulfilling the    prospective contractors     proposal that represents      and open competition          ensure that supplies or             services may take            directly correlate to a    contract performance, and
  technical needs and         agency need in a           by a Government             the best value to the         when soliciting offers        services conform to contract        place before delivery,       contractual document,      final payment has been
  business strategies         timely manner and at a     agency, requesting the      Government.                   and awarding                  requirements.                       at the time of delivery,     contractor invoice, and    made, the contract file
  when defining and           reasonable cost. It        submission of offers or                                   Government contracts                                              or after delivery,           acceptance or receiving    should be closed as soon
  specifying                  includes developing        information.                - Price or cost must be       unless exceptions             - The contracting officer is        depending on the             report.                    as possible.
  requirements.               the overall strategy for                               evaluated in every            apply.                        responsible for ensuring that       provisions of the terms
                              managing the               - Conduct an                source selection and the                                    there is an effective process       and conditions of the        - Invoice reviews by       - The contract file must
  - The Government            acquisition.               assessment of current       quality of the product or     - Sole-source contracts       for measuring the contractor’s      contract.                    contracting officer’s      contain all documents to
  must define and                                        and potential technical,    service must be               may be awarded if             performance that includes                                        representative and         facilitate full reconciliation
  describe agency             - Develop the cost/        cost, schedule, and         addressed through             there is only one             clearly defined levels of           - The Government             Defense Contract Audit     of the contract actions
  requirements that           price estimate for the     performance risks, and      consideration of one or       responsible source and        contractor surveillance.            should not accept            Agency.                    through the life of the
  explain the required        total planned              the plan for mitigating     more noncost evaluation       no other supplies or                                              supplies or services                                    contract.
  results in clear,           acquisition.               those risks.                factors, such as past         services will satisfy         - A fully developed and             before completion of         - Financial management
  specific, and objective                                                            performance, com-             agency requirements.          appropriately structured            Government contract          of funds for contract.     - Closeout actions include:
  terms with measurable       - Determine how the        - Develop quality           pliance with solicitation     In addition, a written        contract surveillance system        quality assurance                                           Physical actions, such
  outcomes in a               acquisition will be        assurance surveillance      requirements, technical       justification and             is crucial to ensure that the       actions, and the                                        as issuing a unilateral
  statement of work,          funded and the             plans and                   excellence, manage-           approval is required          contractor is:                      contracting officer                                     modification to deobligate
  statement of                availability of funding.   responsibilities for        ment capability, person-      prior to commencing                performing on schedule;        should reject supplies                                  excess funds after receipt
  objectives, or                                         monitoring contract         nel qualifications, and       negotiations for a sole-          current in its understand-      or services not                                         of the final invoice and a
  performance work            - Determine contract       performance.                prior experience. The         source contract.              ing of the requirements;            conforming to contract                                  receiving report.
  statement.                  type and duration of                                   relative strengths,                                             and applying adequate           requirements.                                               Administrative actions,
                              contract.                  - Determine the number      deficiencies, significant     - The award decision is       skills and resources to the                                                                 such as disposing of
  - Determine that all                                   of administrative           weaknesses, and risks         based on evaluation           contractual task.                   - Acceptance                                            Government-furnished
  documentation               - Determine whether        contracting officers and    supporting proposal           factors that are tailored                                         constitutes                                             property and classified
  processes are in place      any waivers or             contracting officer’s       evaluation must be            to the acquisition and        - Continued update of contract      acknowledgment that                                     material, as well as
  (contract files,            deviations are             representatives needed      documented in the             proposals must be             files.                              the supplies or                                         releasing contractor
  documentation of            required.                  to be appointed.            contract file; conflicts of   evaluated solely on the                                           services conform with                                   claims.
  market research,                                                                   interest, or the appear-      evaluation factors            - Contractor system reviews         contract quality and
                                                                                                                                                                                                                                                 Financial actions, such
  documentation of pre-       - Plan for requesting      - Develop the plan for      ance thereof, must be         specified in the              should be performed by              quantity requirements
  and post-negotiation        Defense Contract Audit     evaluating whether the      avoided when conduct-         solicitation.                                                     and must be evidenced                                   as ensuring that all interim
                                                                                                                                                 Defense Contract                                                                            or disallowed costs are
  decisions, surveillance     Agency and Defense         metrics have been           ing source selection.                                       Management Agency and               by an acceptance
  plans, and surveillance     Contract Management        achieved, including                                                                                                         certificate.                                            settled. Financial actions
                                                                                                                                                 Defense Contract Audit                                                                      should be completed
  documentation).             Agency assistance.         thresholds for cost,        - Conduct proposal                                          Agency.
                                                         schedule, and               evaluation by assessing                                                                                                                                 when the total obligations
                                                         performance.                the offeror’s proposal                                                                                                                                  and the contract amount
                                                                                                                                                 - DOD Components must                                                                       are in agreement and all
                                                                                     and ability to perform                                      track Government-furnished
                                                         - Issue the solicitation.   the prospective contract                                                                                                                                disbursements have been
                                                                                                                                                 property. The contracting                                                                   paid and recorded
                                                                                     successfully.                                               officer is responsible for                                                                  properly in the general
                                                                                                                                                 Government property                                                                         accounting and finance
                                                                                     - No purchase or award                                      administration and also
                                                                                     shall be made unless                                                                                                                                    system and the
                                                                                                                                                 ensuring that contractor                                                                    Mechanization of Contract
                                                                                     the contracting officer                                     records and property control
                                                                                     makes an affirmative                                                                                                                                    Administration Services
                                                                                                                                                 systems are effective.                                                                      system.
                                                                                     determination of
                                                                                     responsibility for the
                                                                                     prospective contractor.

Red Text = Top five recurring contracting issue areas.                                                                                         * There are 70 contract administration functions in the Federal Acquisition Regulation.
                                                                                                                                      iii
                              Pre-Award                                                                 Award                                                                                   Contract Administration

                              Contract                                                                                                               Oversight and                 Inherently                  Property                                           Financial
  Requirements                                         Contract Type                Source Selection                 Contract Pricing                                                                                                    Award Fee
                            Documentation                                                                                                             Surveillance                Governmental               Accountability                                      Management

- The Government           - A pattern of missing    - The high risk to the     - Improper relationships             - The Government not         - Contractors awarding       - Increased workloads       - Inadequate              - Failure to properly    - The contractor
failing to state           documents or              Government in cost-        between Government and               preparing estimates or       subcontracts to              and responsibilities that   management oversight      document contractor      submitting false invo
requirements function-     documentation with        reimbursement              contractor personnel.                preparing estimates          unsuccessful bidders.        prohibit ongoing DOD        and physical inventory    performance.             or claims to the
ally to the maximum        outdated information in   contracts may provide                                           after solicitations are                                   monitoring of each          control.                                           Government.
extent possible.           the contract file.        an opportunity for fraud   - The Government’s failure to        requested.                   - The Government             contractor’s work.                                    - The fee determining
Specifications that are                              to occur.                  perform market research to                                        providing materials or                                   - Unreliable property     official’s failure to    - Excess profits on
vague make it difficult    - Contract documents                                 determine evaluation factors,        - The Government and         services to contractors      - Contractors certifying    inventory data.           properly document        either a specific
to reasonably compare      that are altered,         - The contracting          contracting method, or whether       contractor utilizing         even though contractors      payments for vendor                                   award fee                contract, product lin
estimates.                 backdated, or modified    officer extending the      commercial items or                  unqualified personnel        are being paid to provide    goods, services, or         - Inventory records       determinations that      division may be a bi
                           to cover deficiencies.    duration of a cost-        nondevelopmental items would         to develop cost or           the materials or services.   salaries.                   disclose unusual patterns differ from Award Fee    fraud indicator.
- The Government                                     reimbursement or time-     meet the Government’s needs.         pricing data used in                                                                  when compared to          Review Board
defining statements of     - Contract awards         and-materials contract                                          estimates.                   - The administrative                                     physical inventory        recommendations.         - Later contractor
work and specifications    made without adequate     after experience           - The Government restricting                                      contracting officer                                      reviews that cannot be                             billings showing a
to fit products or         documentation of all      provided a basis for       procurement to exclude or        - Government                     approving modifications.                                 reasonably explained.     - Award fee granted is   downward adjustme
capabilities of a single   pre-award and award       firmer or fixed pricing.   hamper any qualified contractor. estimates and contract                                                                                              not reflective of the    material costs as lab
contractor, which          actions.                                                                              award prices are                 - Contractors failing to                                 - Inventory items marked contract oversight and    overhead costs
effectively excludes                                 - Award/use of an          - The Government revealing       consistently very close.         meet terms but no                                        with incorrect disposal   surveillance             increase.
competition.               - Invoices that do not    illegal cost-plus-         information about procurements                                    compliance efforts are                                   condition codes, such as assessments.
                           have adequate             percentage-of-cost         to one contractor that is not    - The Government                 undertaken.                                              repairable or scrap when                           - The Government
- The Government           supporting                contract.                  revealed to another.             approves items that                                                                       they should be labeled                             paying contractors t
splitting requirements     documentation or                                                                      are of lesser value but          - The Government                                         excellent.                                         for the same items o
to use simplified          supporting                                           - The Government accepting       the contract cost is not         certifying receipt of                                                                                       services without an
acquisition procedures     documentation is                                     late or nonresponsive            reduced.                         goods without performing                                 - Failure to return                                attempt to recoup th
in order to avoid review   incomplete.                                          proposals, or accepting                                           inspections.                                             Government-furnished                               overpayments.
and approval.                                                                   proposals from nonresponsible - The contractor                                                                             equipment.
                                                                                offerors.                        issuing an engineering           - The user frequently                                                                                       - The Government n
- The Government                                                                                                 change proposal soon             complaining of poor                                                                                         regularly reconciling
modifying the contract                                                          - The Government improperly      after the award of a             quality of supplies or                                                                                      contract payments,
shortly after award in                                                          disqualifying offerors.          contract.                        services provided under                                                                                     transactions, and
order to make material                                                                                                                            a contract. This may                                                                                        inventory.
changes in the                                                                  - The Government exercising                                       indicate that contractors
requirements or                                                                 favoritism towards a particular                                   are delivering something                                                                                    - Contractors’ failure
statement of work.                                                              contractor during the evaluation                                  less than what you are                                                                                      correct known syste
                                                                                process.                                                          paying for.                                                                                                 deficiencies.

                                                                                - The Government awarding                                         - The Government failing                                                                                    - Contractors or
                                                                                contracts to contractors with                                     to appropriately close out                                                                                  suppliers complainin
                                                                                poor records of performance.                                      the contracts in a timely                                                                                   that they are not bei
                                                                                                                                                  manner.                                                                                                     paid in a timely
                                                                                - The Government awarding                                                                                                                                                     manner. This may
                                                                                contracts that include items                                                                                                                                                  indicate fraudulent
                                                                                other than those contained in                                                                                                                                                 manipulations and
                                                                                the bid specifications.                                                                                                                                                       diversion of
                                                                                                                                                                                                                                                              Government resourc
                                                                                - The Government’s approval of                                                                                                                                                through supply or
                                                                                a justification for less than full                                                                                                                                            finance operations.
                                                                                and open competition based on
                                                                                improper reasons or inaccurate                                                                                                                                                - The Government’s
                                                                                facts.                                                                                                                                                                        failure to deobligate
                                                                                                                                                                                                                                                              funds.



                                                                                                                                           iv


Table of Contents
Results in Brief                                                 	 i


       Contract Process                                           iii 

       Fraud Indicators in Relation to the Contracting Process    iv 


Introduction	                                                     1


       Objectives                                                 1       

       Background                                                 1       


What We Found		                                                   2       


       1. Requirements 	                                          3

       2. Contract Documentation 	                                6

       3. Contract Type 	                                         8

       4. Source Selection        	                              11       

       5. Contract Pricing       	                               12       

       6. Oversight and Surveillance 	                           13 

       7. Inherently Governmental Functions 	                    19 

       8. Property Accountability      	                         21       

       9. Award Fees        	                                    23       

      10. Financial Management 	                                 24 


What Has Been Done Based On Our Audits	                          30 


What Needs To Be Done		                                          34       


Appendices

       A. Scope and Methodology 	                                37 

              Prior Coverage                                     37 

       B. Issue Areas by Audit Report 	                          38 

       C. National Procurement Fraud Task Force 	                39 

       D. Fraud Indicators in the Contracting Process 	          44 

       E. Commission on Wartime Contracting                                   

              Interim Report and DOD’s Response                  48 

       F. DOD Inspector General Reports 	                        53 

Introduction
Objectives
Our overall objective was to provide DOD field commanders and contract managers with
information on systemic contracting issues identified in DOD Inspector General (IG)
products issued from October 1, 2007 through April 1, 2010, that involve high-risk areas
of contract management and identify actions that need to be taken to correct these issues
for future contracting. This report provides a contract framework and tool for training
personnel in the Defense Acquisition Workforce Improvement Act career fields. See
Appendix A for a discussion of the scope and methodology, as well as prior coverage.

Background
DOD is the world’s largest purchaser of goods and services. DOD spent $392 billion in
FY 2008 and $366 billion in FY 2009 on contracts. The DOD acquisition and
contracting community continues to face the stress of managing the increasing Defense
budget with a smaller and less capable workforce. The size and skill of the DOD
acquisition workforce has not kept pace with the growth of its contract oversight
responsibilities. Effective oversight of the diverse functions performed under high dollar
value logistics and support contracts requires a sizeable cadre of highly-trained
Government contracting personnel with specialized knowledge and significant
acquisition expertise. Collective results of work conducted throughout Southwest Asia
have led the DOD IG to conclude that a relatively small number of inexperienced civilian
or military contract administrators and support personnel were assigned far-reaching
responsibilities for an unreasonably large number of contracts. In order to meet urgent
warfighter needs in contingency operations, contracted procurements were expedited,
contributing to less than prudent contracting practices.
                         DOD Spending on Contract Awards
                                (Amounts in billions of dollars)

                  FY 2008             FY 2009                FY 2008-2009
                   $392.1              $365.9                      $758.0

The United States Code (U.S.C.), Federal Acquisition Regulation (FAR), Defense
Federal Acquisition Regulation Supplement (DFARS), DOD 5000 series of acquisition
guidance, and DOD Regulation 7000.14-R, “The DOD Financial Management
Regulation,” provide the policies, directives, guidance, and instructions for awarding and
administering contracts. The contract process flowchart, on page iii, highlights the key
parts of the contracting process based on Federal and DOD guidance.




                                               1


What We Found
We reviewed 32 Audit reports and 2 Special Plans and Operations (SPO) reports issued
by the DOD IG from October 1, 2007 through April 1, 2010, that involve high-risk areas
of contract management and identify actions that need to be taken to correct these issues
for future contracting. In addition, we reviewed 19 Defense Criminal Investigative
Service (DCIS) investigations dealing with contingency contracting issues. DCIS
investigations were included separately because the fraud investigations are distinctly
different from the auditing process (Appendix C). The reports and investigations covered
a wide variety of acquisition programs and contracting issues. The DOD IG also reported
on DOD adherence to laws and regulations, specifically the FAR and the DFARS.

DOD IG audits were initiated based on internal DOD management requests, Defense
Hotline allegations, statutory requirements, congressional requests, and referrals from
investigative agencies. These audits disclosed a wide array of problems involving
compliance with Federal and DOD policies that were designed to ensure DOD receives
what it contracted for and at the best price. We grouped the deficiencies discussed in the
reports into the following 10 issue areas in contracting process order:
    1. Requirements,
    2. Contract Documentation,
    3. Contract Type,
    4. Source Selection,
    5. Contract Pricing,
    6. Oversight and Surveillance,
    7. Inherently Governmental Functions,
    8. Property Accountability,
    9. Award Fees, and
  10. Financial Management.

Appendix A explains the methodology we used in reviewing these reports and how we
determined the issue areas to summarize in the report. Appendix B contains a list of the
issue areas by report number. Most of the reports identified more than one issue area.
Appendix F is a list of all the reports and the Web site to obtain copies.

Appendix C discusses the 19 DCIS investigations involving fraudulent contracting
activity in Southwest Asia from October 1, 2007 through April 1, 2010. Appendix D
provides a description of fraud indicators at different phases/steps throughout the
contracting process.

Appendix E discusses similar issues identified in a June 2009 Interim Report by the
Commission on Wartime Contracting (COWC) in Iraq and Afghanistan and DOD’s
response to that report. We included DOD’s response to show the progress and focus
DOD has on contingency contracting. Their work and ours have a distinct correlation
because we both want to improve program and contract management.



                                            2

Contingency Contracting
DOD routinely uses contracted support in contingency operations. Contingency
contracting is direct contracting support to tactical and operational forces engaged in
armed conflict and noncombat contingency operations such as disaster relief efforts
including Hurricane Katrina and the California wildfires, both domestic and overseas.
Contingency contracting is the process of obtaining goods, services, and construction
from commercial sources via contracting means in support of contingency operations. A
contingency contract is a legally binding agreement for supplies, services, and
construction awarded by Government contracting officers in the operational area, as well
as other contracts that have a prescribed area of performance within a designated
operational area.

Contingency contracting encompasses all contracting done in a contingency environment,
including stability operations, natural disasters, and other catastrophic events. DOD has
experienced an increased reliance on contractors to support the operational force.
Contractors are called upon to fill a growing number of back office positions, provide
front-line support in contingencies, and help with the cradle-to-grave contracting process.

We identified 10 systemic issues areas related to contracting deficiencies.

1. Requirements
Establishing appropriate and accurate requirements is one of the most important parts of
the contracting process. If program officials do not establish specific, well-defined
requirements, all aspects of the contracting process that follow are adversely affected.
The requirements process is used to deliver the capabilities required by the warfighter.
Acquisition contracting begins when agencies identify their needs and clearly define the
requirements necessary to satisfy those needs. Contracting activities and their customers
should consider both technical needs and business strategies when defining and
specifying requirements. The Government must define and describe agency requirements
that explain the required results in clear, specific, and objective terms with measurable
outcomes. Additionally, contingency contracting officers must ensure that specifications
reflect only what is needed to meet the requirements of the mission and that the statement
of work, statement of objectives, or performance work statement will not unnecessarily
restrict competition or innovation. Further, if changing requirements necessitate contract
modifications, the contracting officer must ensure that the changes are within the scope of
the original contract prior to executing the modifications.

Deficiencies related to requirements may be categorized into two distinct issue areas:
unclear/change requirements and out-of-scope requirements.

Criteria for Establishing Clear Requirements
FAR Subpart 46.201, “Quality Assurance: General,” states that the contracting officer
should include appropriate contractor quality requirements during the solicitation. FAR
Part 37, “Service Contracting,” states that performance-based service contracts should
include a performance work statement. A performance work statement should describe

                                             3


the required services in terms of the desired results rather than how the work should be
accomplished. Additionally, when using a performance work statement, agencies should
use measurable performance standards.

Acquisition planning should begin as soon as the agency need is identified, preferably
well in advance of the fiscal year in which contract award or order placement is
necessary. Requirements and logistics personnel should avoid issuing requirements on an
urgent basis or with unrealistic delivery or performance schedules, since it generally
restricts competition and increases prices. Early in the planning process, the planner
should consult with requirements and logistics personnel who determine type, quality,
quantity, and delivery requirements. According to FAR Subpart 7.1 “Acquisition Plans,”
the agency should perform acquisition planning and conduct market research for full and
open competition, or when full and open competition is not required, obtain competition
to the maximum extent practicable. Specifically, the agency head is responsible for
ensuring that acquisition planners address the requirement to specify needs, develop
specifications, and to solicit offers in such a manner to promote and provide for full and
open competition with regard to the nature of the supplies and services being acquired.
In addition, the agency head is required to establish criteria and thresholds with
increasingly greater detail in the planning process as the acquisition becomes more
complex and costly. The purpose of this planning is to ensure that the Government meets
its needs in the most effective, economical, and timely manner.

Report Examples of Unclear/Changing Requirements
       The Regional Contracting Command Bagram did not follow FAR standards for
       contracting procedures relating to quality assurance. The Regional Contracting
       Command Bagram awarded construction contracts that had poorly written
       statements of work that often lacked specific requirements and did not clearly
       define the acceptable standards for construction projects. Joint Contracting
       Command-Iraq/Afghanistan personnel stated the reason for the poor statements of
       work was a lack of available subject matter experts to consult with during the
       procurement phase of the contracting process. The nonspecific, unclear
       statements of work contributed to the poor quality of buildings and projects
       accepted by the U.S. Government. The unclear statements of work were one of
       multiple factors contributing to the $3.4 million of rework at Bagram Air Field for
       rewiring housing units, reinstalling sewage lines for latrines and repairing
       flooring. (Report No. D-2008-119)

       The Combined Security Transition Command-Afghanistan and Afghanistan
       Engineer District improperly exercised a contract option that did not have well-
       defined requirements on one of the Kabul National Military Hospital contracts.
       As a result, the Afghanistan Engineer District may have spent $770,000 of
       unsupported Afghanistan Security Forces funds unnecessarily on the two Kabul
       National Military Hospital contracts. For example, Combined Security Transition
       Command-Afghanistan and Afghanistan Engineer District did not properly
       define a contract requirement for an oxygen supply system at the National
       Military Hospital. The Afghanistan Engineer District exercised the option for the

                                            4


       replacement of an oxygen supply system as part of the award of the contract.
       However, more than one year later, the Afghanistan Engineer District removed
       the oxygen supply system requirement because it was discovered that the scope of
       the requirement would have to be significantly increased in order to bring the
       work up to code. Because the oxygen supply system requirements were not fully
       defined at the time the contract was awarded, the exercise of the oxygen supply
       system option was not appropriate. As a result of the removal of the oxygen
       supply system requirement, the Afghanistan Engineer District inefficiently spent
       $170,666 for design costs for an oxygen supply system that was never delivered.
       (Report No. D-2009-076) Figure 1 shows a picture of the Kabul National
       Military Hospital.

                     Figure 1. Kabul National Military Hospital




                  Source: DOD IG Report D-2009-076

Criteria for Awarding Out-of-Scope Requirements
According to FAR Part 6, “Competition Requirements,” contracting officers must
promote and provide for full and open competition when awarding out-of-scope
modifications to existing Government contracts. The competitive procedures available
for fulfilling the requirement for full and open competition include sealed bids,
competitive proposals, or a combination of competitive procedures. A contract awarded
without providing for full and open competition must contain a reference to the specific
authority under which the contact was awarded.

Report Examples of Out-of-Scope Requirements
       The Marine Corps exceeded the maximum quantity of vehicles to be ordered
       resulting in a violation of the scope of the contract. The contracting officials
       awarded 5 delivery orders to 1 contractor for a total of 4,455 Mine Resistant
       Ambush Protected Category I vehicles and 6 delivery orders to another contractor
       for an unidentified number of Category I vehicles even though the maximum
       quantity of Category I vehicles to be ordered under each contract was 1,500. The
       contract was modified twice to increase the maximum number of Category I
       vehicles that could be ordered from 1,500 to 4,000 vehicles; which still does not
       cover the additional 455 vehicles that were ordered. Marine Corps Systems

                                            5

       Command officials stated that they saved the Government $127.3 million by
       paying base year prices instead of the higher option year prices for the increased
       number of vehicles purchased in the base year. However, the vehicles were
       purchased in the base year, and the number of vehicles ordered in excess of the
       initial contract maximum was significantly beyond the contract scope. Prudent
       business practices would dictate that the buy be recompeted or, at a minimum, the
       price renegotiated to ensure a fair and reasonable price for the increased number
       of vehicles. (Report No. D-2009-046) The following picture depicts a Mine
       Resistant Ambush Protected Vehicle in Afghanistan.

              Figure 2. A Mine Resistant Ambush Protected Vehicle During a
                                 Patrol in Afghanistan




                           Source: www.defenseimagery.mil

       The U.S. Air Forces Central War Reserve Materiel contracting officer issued
       contract modifications outside the scope of the War Reserve Materiel contract.
       Specifically, the contracting officer modified the War Reserve Materiel
       performance work statement to include two additional requirements, valued at
       $23.5 million, that were outside the scope of the original War Reserve Materiel
       performance work statement. The two additional requirements added were the
       requirement to refresh the Air Force High Mobility Multipurpose Wheeled
       Vehicle and provide operations, maintenance, and support for the Naval Forces
       Central Command munitions. The modifications were outside the scope of the
       original performance work statement because they included work that Air Force
       Central Command and the contractor had not contemplated or foreseen when they
       negotiated the original War Reserve Material contract. This occurred because the
       contracting officer failed to consider scope constraints when U.S. Air Forces
       Central functional personnel and U.S. Naval Forces Central Command personnel
       requested the use of the War Reserve Materiel contract for the additional
       requirements. As a result, the War Reserve Materiel contracting officer did not
       properly compete the additional requirements and may not have received fair and
       reasonable prices. (Report No. D-2009-108)

2. Contract Documentation
The head contracting office and contract administration office should maintain a contract
file that contains records of all contractual actions taken during that contract. The

                                             6


documentation in the contract file should support the rationale and actions taken for the
entire procurement process and support all contractual actions taken. Specifically, the
contract file should contain documentation that supports the basis of the acquisition and
the award of the contract; assignment of contract administration; the performance of
contract administration responsibilities and duties; and actions taken reflecting contract
payment. Additionally, the contract file should provide a complete audit trail that can be
used to support future reviews, investigations, and congressional inquiries. Examples of
documentation contained in the contract file include:

       ·   a signed copy of the awarded contract, all contract modifications, and
           documents that support the contract modifications;
       ·   justifications and approvals;
       ·   determinations and findings;
       ·   contract type justification;
       ·   source selection documentation;
       ·   cost or price analysis;
       ·   quality assurance and property records; and
       ·   bills, invoices, vouchers, and supporting documents.

Figure 3 shows Iraqi contractor agreeing to contract terms.

               Figure 3. Iraqi Construction Contractor Signs Contract




                Source: www.defenseimagery.mil

Criteria for Maintaining Contract Documentation
FAR Subpart 4.8, “Government Contract Files,” states that contract administration files
should document actions reflecting the basis for and the performance of contract
administration responsibilities to include official copies of supporting documentation.

DFARS Subpart 204.8, “Contract Files,” January 24, 2008, requires that official contract
files consist of original, authenticated, or conformed copies of contractual instruments, as
well as signed or official copies of correspondence, memoranda, and other documents.

                                             7


Each contract file should provide a complete background for decision making, actions
taken, and reviews and investigations, as well as to furnish essential facts in case of
litigation or congressional review.

Report Examples of Contract Documentation
       The U.S. Army Contracting Command, Southwest Asia-Kuwait did not maintain
       adequate contract documentation to support contract actions. For example, legal
       reviews for task orders were not always performed or were completed after the
       task orders were approved. Additionally, many key documents such as
       requirements, receiving reports, and invoices were either missing or not
       signed. We were not able to determine whether valid requirements existed,
       services were performed, and if the Government was properly billed. As a result,
       DoD did not have reasonable assurance that commercial transportation services
       for movement of equipment, cargo, and personnel, totaling as much as $522
       million, complied with terms set forth in the program’s performance work
       statements, were valid requirements, and were received and represented the best
       value to the Government. (Report No. D-2009-096)

       The Multi-National Force-Iraq and Multi-National Corps-Iraq did not have
       sufficient contract documentation for the 134 nontactical vehicles contracting files
       reviewed. From those 134 nontactical vehicles contract files, the report noted that
       85 percent did not contain an acceptance document, 79 percent did not indicate
       that a contracting officer representative (COR) was appointed to administer and
       oversee the contract, 54 percent did not show why a contractor was selected for
       performance, and 57 percent did not reflect justification or intended use of the
       requested nontactical vehicles. The report also noted that the issues were more
       prevalent and more contracts were awarded at the regional contracting centers
       than at the Multi-National Security Transition Command-Iraq support location.
       Without accurate contracting files, DOD cannot make effective decisions
       regarding nontactical vehicles. (Report No. D-2010-022)

3. Contract Type
A wide selection of contract types is available in order to provide flexibility in acquiring
the supplies and services required. Contract types are grouped into two broad categories:
fixed-price contracts and cost-reimbursement contracts. Specific contract types range
from firm-fixed-price, in which the contractor has full responsibility for the performance
costs and resulting profit (or loss), to cost-plus-fixed-fee, in which the contractor has
minimal responsibility for the performance costs and the negotiated fee (profit) is fixed.
DOD officials should select the contract type that places a reasonable degree of risk upon
the contractor and provides the contractor with the greatest incentive to perform
efficiently and economically. When selecting and negotiating the contract type, the
contracting officer should consider the availability of price competition, the type and
complexity of the requirement, the period of performance, and the general acquisition
environment. The contracting officer should document the rationale in the contract file
for the contract type selected.


                                             8

Deficiencies related to the section of contract type consist of three subcategories:
firm-fixed-price, cost-type, and commercial acquisition.

Criteria for the Use of Firm-Fixed-Price Contracts
The FAR provides guidance on selecting the appropriate contract type. FAR
Subpart 16.1, “Selecting Contract Types,” and Subpart 16.2, “Fixed-Price Contracts,”
state that contracting officers should select a contract type that will result in reasonable
contractor risk and provide the contractor with the greatest incentive for efficient and
economical performance. Firm-fixed-price contracts place full responsibility for
performance costs and resulting profit or loss on the contractor. FAR Subpart 16.103(b)
states that a firm-fixed-price contract should be used “when the risk involved is minimal
or can be predicted with an acceptable degree of certainty. However, when a reasonable
basis for firm pricing does not exist, other contract types should be considered.

Report Example of Firm-Fixed-Price
       U.S. Army Space and Missile Defense Command/Army Forces Strategic
       Command officials incorrectly used firm-fixed-price contract line items for 28 of
       the 35 task orders reviewed (worth approximately $32.5 million) instead of using
       a cost-type contract. They used the firm-fixed-price contract line items for the
       28 task orders because they did not want to use cost-type contracts due to their
       increased oversight requirements and cost audits associated with executing cost-
       type contracts. Thus, contracting officers circumvented the FAR to avoid the
       oversight reviews conducted by the Defense Contract Audit Agency (DCAA).
       (Report No. D-2009-109)

Criteria for the Use of Cost-Type Contracts
Section 2306(a), title 10, United States Code (10 U.S.C. 2306[a]) prohibits the use of the
cost-plus-percentage-of-cost system of contracting. The underlying intent of Congress in
prohibiting the cost-plus-award-fee system of contracting is to protect the Government
from a contractor who has a contract for payment of undetermined future costs to pay
liberally for reimbursable items because higher costs means higher profit for the
contractor.

FAR Subpart 16.3, “Cost-Reimbursement Contracts,” states that a cost-reimbursement
contract may only be used when appropriate Government surveillance during
performance will provide reasonable assurance that efficient methods and effective cost
controls are used.

Report Examples of Cost-Type
       Navy Facilities Engineering Command Southeast contracting officials awarded
       the contractor three task orders on its cost-plus-award-fee Navy Construction
       Capabilities contract for hurricane recovery efforts valued at $229 million that
       were administered as prohibited cost-plus-percentage-of-cost contracts. This
       occurred because Navy Facilities Engineering Command Southeast contracting
       officials never obtained proposals from the contractor and negotiated agreements
       for contract requirements that conclusively fixed the amount of fee or provided

                                              9

       for a specific scope of work or level of effort. As a result, the award fee available
       to the contractor increased proportionally to costs expended in performance,
       rewarding inefficiency and non-economical performance because higher costs
       meant higher profit to the contractor. The Navy paid additional fees for numerous
       tasks that had to be redone due to poor workmanship. For example, the contractor
       failed to lay the piping to the depth prescribed by the local building code
       causing numerous pipes to break. To fix the issue, the Navy added additional
       money to the contract for the same contractor to repair the damaged plumbing.
       (Report No. D-2008-097)

       Logistics Civil Augmentation Program IV acquisition plan states the use of
       indefinite-delivery, indefinite-quantity contracts allows the contracting officer to
       choose from three contract types—firm fixed price, cost plus award fee, and cost
       plus fixed fee. However, the report identified that the contracting officer planned
       to award only cost-plus-award-fee task orders. The acquisition plan allowed the
       use of cost-plus-award-fee task orders for contingency operations to motivate
       contractors to provide excellent performance. The Army, however, has the ability
       to issue firm-fixed-price contracts when costs can reasonably be estimated and
       cost-plus task orders for work with uncertain costs. Some costs related to
       contingency contract operations could reasonably be established at fixed prices
       based on experience; however, the Logistics Civil Augmentation Program IV
       Procuring Contracting Officer did not identify those costs. Limiting the use of
       cost-plus-award-fee contracts could reduce the likelihood of contractors
       overcharging the Government for goods and services and put less strain on
       overburdened oversight resources. (Report No. D-2009-114)

Criteria for the Use of Commercial Acquisition Contracts
FAR Subpart 2.1 defines commercial items as goods used by the public or a
nongovernmental entity that either have been offered for sale, offered for lease, or
licensed, or have been sold, leased, or licensed to the public or a nongovernmental entity.
FAR Subpart 12.2, “Special Requirements for the Acquisition of Commercial Items,”
February 12, 2007, requires that agencies use firm-fixed-price contracts to acquire
commercial items. The use of firm-fixed-price contracts when purchasing a commercial
item is required to avoid fees contractors can charge the Government for procuring items
that can be purchased by the public. Additionally, acquisition of commercial items under
a cost-plus-fixed-fee contract is strictly prohibited.

Report Example of Commercial Acquisition
       U.S. Army Space and Missile Defense Command/Army Forces Strategic
       Command officials improperly used cost-plus-fixed-fee contract line items for
       10 task orders valued at $16.1 million to buy commercial items such as laptops,
       cell phones, and off-road vehicles; instead of using firm-fixed-price contract line
       items. The cost-plus-fixed-fee contract line items were used because U.S. Army
       Space and Missile Defense Command/Army Forces Strategic Command officials
       did not consider the items to be commercial, even though they were available to
       the public for purchase. Consequently, U.S. Army Space and Missile Defense

                                            10

       Command/Army Forces Strategic Command contracting officials could have
       wasted approximately $439,000 by paying unnecessary fees to contractors for
       commercial items. (Report No. D-2009-109)

4. Source Selection
The objective of source selection is to select the proposal that represents the best value to
the Government. Contracting officers must provide for full and open competition when
soliciting offers and awarding Government contracts, unless exceptions apply. Proposal
evaluation is an assessment of the offeror’s proposal and ability to perform the
prospective contract successfully. The award decision is based on evaluation factors that
are tailored to the acquisition and proposals must be evaluated solely on the evaluation
factors specified in the solicitation. Price or cost must be evaluated in every source
selection, and the quality of the product or service must be addressed through
consideration of one or more noncost evaluation factors, such as past performance,
compliance with solicitation requirements, technical excellence, management capability,
personnel qualifications, and prior experience. The relative strengths, deficiencies,
significant weaknesses, and risks supporting proposal evaluation must be documented in
the contract file and conflicts of interest, or the appearance thereof, must be avoided
when conducting source selection.

Criteria for Performing Source Selection
FAR Subpart 15.3, “Source Selection,” states the source selection authority “shall ensure
consistency among the solicitation requirements, notices to offerors, proposal preparation
instructions, evaluation factors and subfactors, solicitation provisions or contract clauses,
and data requirements.” Source selection personnel should document and disclose the
importance of the performance specifications to the subfactors in the solicitation to avoid
a misunderstanding of the evaluation criteria among the contract offerors.

FAR Subpart 15.403-1(c)1(i), “Obtaining Cost or Pricing Data,” states a contract price is
based on adequate price competition if two or more responsible offerors…submit priced
offers that satisfy the Government’s expressed requirement and:
    (A) Award will be made to the offeror whose proposal represents the best value . . .
         where price is a substantial factor in source selection; and
    (B) There is no finding that the price of the otherwise successful offeror is 

         unreasonable. 


FAR Subpart 9.1, “Responsible Prospective Contractors,” states “the award of a contract
to a supplier based on lowest evaluated price alone can be false economy if there is
subsequent default, late deliveries, or other unsatisfactory performance resulting in
additional contractual or administrative costs.”

Report Examples of Source Selection
       The Marine Corps Systems Command did not follow the FAR during the source
       selection process. Specifically, the Source Selection Authority directed the
       Source Selection Advisory Council to reconsider the proposals from Offeror A
       and General Dynamics three times until General Dynamics was determined the

                                             11

       best value for the contract. Therefore, there is no assurance that the Government
       received the best value for the work provided. (Report No. D-2009-041)

       The Marine Corps Systems Command did not obtain adequate price competition
       when awarding Mine Resistant Ambush Protected vehicle contracts. Adequate
       price competition exists when two or more offerors submit priced offers for a
       requirement and the award is made to the offeror whose proposal represents the
       best value. However, each offeror proposed a different technical solution, and
       Marine Corps Systems Command officials awarded nine separate contracts
       for contractor-unique technical solutions at nine different contractor-proposed
       prices. All contracts were awarded firm-fixed-price without price negotiation
       discussions and without reliable cost or pricing data. Marine Corps Systems
       Command officials stated that price was not a rated factor in the source selection,
       and that contracts were awarded to all offerors who could meet technical
       capability requirements. Consequently, price was not a substantial factor in
       source selection, as required by the FAR for determining that the contract price
       was based on adequate price competition. As such, determination of price
       reasonableness during the contract award should have taken even more
       importance. (Report No. D-2009-046)

5. Contract Pricing
Contracting officers must purchase supplies and services at fair and reasonable prices and
are responsible for evaluating the reasonableness of the offered prices. The complexity
and circumstances of each acquisition should determine the level of detail of the analysis
required. The contracting officer may require the advice and assistance of other experts
to ensure that an appropriate analysis is performed. When cost or pricing data are not
required, the contracting officer must perform price analysis. The Government may use a
variety of price analysis techniques to ensure fair and reasonable pricing, including:

      comparison of proposed price to prices found reasonable on previous purchases,
      comparison of proposed price to independent government cost estimates, and
      analysis of pricing information provided by the offeror.

When cost or pricing data are required, contracting officers should use cost analysis to
evaluate the reasonableness of individual cost elements and should use price analysis to
verify that the overall price is fair and reasonable.

Criteria for Obtaining Fair and Reasonable Prices
FAR Subpart 15.4, “Contract Pricing,” states that the objective of proposal analysis is to
ensure that the final agreed-upon price is fair and reasonable. The Government may use
various price and cost analysis techniques and procedures to ensure a fair and reasonable
price is received.

Report Examples of Contract Pricing
       The Army provided no evidence of price reasonableness in two procurements
       valued at $242 million. The Army Research, Development, and Engineering

                                            12
       Command did not use validated historical pricing data when determining price
       reasonableness for current and future procurements, and made comparisons to
       prices when the volumes being acquired differed greatly. For example, the Army
       paid $285.00 each for an initial order of 10,000 Deltoid and Axillary Protectors.
       In a subsequent order, the Army procured 840,000 Deltoid and Axillary
       Protectors from the same manufacturer at the same price as the 10,000.
       Contracting officials compared orders of 840,000 and 10,000 when determining
       price, without taking into account a possible volume-quantity discount. As a
       result, there is no evidence that the historical pricing used, or the price at which
       the contract was awarded was fair or reasonable. (Report No. D-2008-067)

       The Afghanistan Engineer District did not properly negotiate and award contract
       modifications to two contracts, valued at $1.4 million, related to the renovation
       and repair of the Kabul National Military Hospital resulting in an unnecessary
       spending of more than $770,000. For example, the U.S. Army Corps of
       Engineers cost engineer prepared the independent Government estimate of
       $133,881 for the evaluation and replacement of sewage risers, but awarded the
       contract for $343,500 without verifying the cost difference. As a result, the
       Government may have overpaid for the contract modification.
       (Report No. D-2009-076)

6. Oversight and Surveillance
Contracting officers perform oversight and surveillance to ensure that supplies or services
conform to contract requirements. Agencies should implement procedures to assure that
contract requirements are met before the acceptance of deliverables. The contracting
officer is responsible for ensuring that there is an effective process for measuring the
contractor’s performance that includes clearly defined levels of contractor surveillance.

A fully developed and appropriately structured contract surveillance system is crucial to
ensure that the contractor is:

      performing on schedule, 

      current in its understanding of the requirements, and 

      applying adequate skills and resources to the contractual task.


Contracting officers may delegate contract administration or obtain specialized support
services from outside agencies, such as DCMA or DCAA. Additionally, the contracting
officer can delegate certain contract administration functions to administrative
contracting officers and can appoint CORs. The CORs perform technical monitoring,
inspections, and acceptance of contract deliverables and ensure that the contract and
program offices are fully aware of the contractor’s performance. However, CORs have
no authority to make any commitments or changes that affect price, quality, quantity,
delivery, or other terms and conditions of the contract.

Quality assurance surveillance plans (QASPs) should be prepared in conjunction with the
preparation of the statement of work, and the plans should specify all work requiring

                                            13


surveillance and the method of surveillance. Acceptance of contractual supplies or
services may take place before delivery, at the time of delivery, or after delivery,
depending on the provisions of the terms and conditions of the contract. The
Government should not accept supplies or services before completion of Government
contract quality assurance actions, and the contracting officer should reject supplies or
services not conforming to contract requirements. Acceptance constitutes
acknowledgment that the supplies or services conform with contract quality and quantity
requirements and must be evidenced by an acceptance certificate.

We identified six factors related to contract oversight and surveillance deficiencies:
acceptance, contracting officer, COR, DCAA, Defense Contract Management Agency
(DCMA), and written procedures.

Criteria for Accepting Goods and Services
According to FAR Subpart 46.5, “Acceptance,” acceptance constitutes acknowledgement
that the supplies or services conform with applicable contract quality and quantity
requirements, except as provided in this subpart and subject to other terms and conditions
of the contract. Acceptance may take place before delivery, at the time of delivery, or
after delivery, depending on the provisions of the terms and conditions of the contract.
Supplies or services shall ordinarily not be accepted before completion of Government
contract quality assurance actions.

DOD Financial Management Regulation (FMR), volume 10, chapter 7, requires that the
office receiving goods or services complete a receiving report as formal acceptance that
the Government was satisfied with the contractor’s performance.

Report Examples of Acceptance
       The contracting officer for the Family of Medium Tactical Vehicles conditionally
       accepted incomplete vehicles and paid the contractor up to 100 percent for some
       of the vehicles. Specifically, the contracting officer approved 32 contractor
       requests and inappropriately conditionally accepted 1,745 of the 2,366 vehicles.
       The administrative contracting officer conditionally accepted and paid full price
       for 656 vehicles in response to contractor reasons for the Government to
       conditionally accept the vehicles, including noncompletion of testing
       requirements, request for a deviation of nonconforming contractor parts, and
       delivery schedule delays for the contractor to incorporate engineering change
       proposals. This occurred because the project manager believed that the
       conditional acceptance allowed a more efficient production and acceptance
       process. Furthermore, the project manager believed that these practices were in
       the best interest of the Army, although they were not in accordance with the
       contract terms and FAR requirements. The conditional acceptance of vehicles
       resulted in the Army prematurely paying more than $3.8 million for vehicles.
       (Report No. D-2008-038)

       A sample inventory of weapons in Depot 1, a weapons storage depot for the
       Afghan National Army, purchased by the U.S. Military from a contractor for

                                           14

       distribution to the Afghanistan National Army, appeared to be in unsatisfactory
       condition. The majority of the weapons did not appear to have been cleaned prior
       to delivery. They were dirty, had rust on them, and some of the barrels were
       clogged with cloth. In addition, these particular “refurbished” weapons had paint
       that came off on your hands when handled, broken hand guards and ejection port
       covers, and even had leftover “Go Army” stickers on them. The weapons were,
       therefore, not in acceptable condition for distribution to the Afghan National
       Army. These weapons needed to be serviced, range-tested and brought up to an
       acceptable condition for issuance. This occurred because of a lack of oversight to
       ensure M16s provided met the standard required in the procurement contract. As
       a result, the Combined Security Transition Command-Afghanistan will be forced
       to withhold some M16s from distribution to the Afghan National Army until these
       problems are corrected. (Report No. SPO-2009-006)

Criteria for Providing Appropriate Quality Assurance
FAR Part 46, “Quality Assurance,” states that the contract administration office must
maintain suitable records reflecting the nature of Government contract quality assurance
actions and decisions regarding the acceptability of products, processes, and
requirements, as well as actions to correct defects. It also states that Government contract
quality assurance will be performed when necessary to determine whether services meet
contract requirements. QASPs should be prepared in conjunction with the preparation of
the statement of work. The plans should specify all work requiring surveillance and the
method of surveillance.

Not having a defined QASP before the start of contract performance can result in gaps in
contract surveillance and a lack of assurance that services and goods are in accordance
with the terms of the contract. Additionally, without a proper QASP, contracting officials
have no standards for determining whether supplies or services provided by contractors
complied with contractual requirements, and may not be able to stop the waste of
Government time and money.

Report Examples of Quality Assurance/Contracting Officer
       The Special Operations Forces Support Activity contracting officer did
       not provide adequate contract oversight for 44 service task orders, valued at
       $514 million. Specifically, the contracting officer did not develop and implement
       a QASP for, or assign a COR to, any of the 44 service task orders. Instead, the
       contracting officer relied on customer surveys, monthly management meetings,
       and quality deficiency reports submitted by customers to determine whether the
       Government obtained the products and services it contracted for. Also, the
       contracting officer designated one COR for all the 2,148 task orders executed in
       20 countries. However, one individual is not capable to conduct proper
       surveillance for 2,148 task orders in 20 countries, and the designated COR
       confirmed that he did not perform any COR duties. As a result of the lack of
       CORs and QASPs, the warfighters may not be receiving the quality and quantity
       in products and services contracted for more than $514 million. For example, the
       Government customer of a task order discovered that the contractor improperly

                                            15

        installed a thrust nut lock ring on a C-130 aircraft, but this was discovered only
        after a test caused damage, which cost the Government approximately $219,000
        to fix. If the contracting officer had designated a COR to this task order, the
        mistake could have been discovered prior to the testing, which would have
        relieved the Government of about $204,0001 in additional expense. A more
        somber effect of the improperly installed thrust nut lock ring and the associated
        parts could have been further damage to the aircraft or loss of life. (Report No. D­
        2009-083)

        Department of State contracting officials did not conduct adequate surveillance
        for two task orders in excess of $1 billion. This occurred because contracting
        officials did not adequately staff in-country CORs for Afghan National Police
        task orders and did not prepare a QASP for one of the two Afghan National Police
        task orders. Specifically, by the beginning of 2008, nearly $675 million was
        obligated without any evidence of in-country CORs functioning in Afghanistan.
        Without a proper QASP, contracting officials have no standards for determining
        whether goods or services provided by contractors comply with contractual
        requirements. As a result, Department of State personnel provided no assurance
        to the contracting officer that the Government received all of the goods and
        services procured by the contractor or that the Department of State received the
        best value when contracting for services. (Report No. D-2010-042) The
        following figure shows members of the U.S. Army Corps of Engineers discussing
        construction goals in Iraq.

    Figure 4. Members of the U.S. Army Corps of Engineers Discuss Construction
         Goals with a Contractor and a Construction Worker in Mosul, Iraq




                      Source: www.defenseimagery.mil


1
 The difference between the Government cost to fix the aircraft and the actual expenses represents $15,000
paid by the contractor to the Government because of the contractor’s mistake.

                                                   16

Criteria for Assigning Contracting Officer Representatives
According to DFARS Subpart 201.6, “Career Development, Contracting Authority, and
Responsibilities,” April 23, 2008, CORs assist in the technical monitoring or
administration of a contract. Additionally, according to DFARS Subpart 201.6, a COR
must be a Government employee, qualified by training and experience commensurate
with the responsibilities delegated in accordance with Department or agency guidelines.
According to the Office of Management and Budget memorandum, “The Federal
Acquisition Certification for Contracting Officer Technical Representatives,”
November 26, 2007 (Federal COR certification program), all CORs appointed to a
contract after the effective date of the memorandum must be certified no later than
6 months from their date of appointment. The Federal COR certification program
established competency-based core training and assignment-specific training to achieve
and maintain the COR certification. Once certified, CORs must maintain their
contracting skills and knowledge through continuous learning. DFARS 201.602-2,
“Responsibilities,” also states that COR responsibilities must be in writing and that the
responsibilities cannot be redelegated. For that reason, the contracting officer is expected
to appoint a properly trained COR.

Report Example of Contracting Officer Representatives
       The U.S. Air Forces Central War Reserve Materiel CORs did not adequately
       document acceptance of services performed by the contractor for more than 4
       years. The Executive Coordinating Agency issued 29 quality assurance
       surveillance reports from September 2000 through March 2005 that documented
       the inspection of contractor services and discrepancies found during surveillances;
       however, the quality assurance surveillance reports did not document the
       contractor’s corrective actions for COR-identified discrepancies or the CORs’
       final determination as to the acceptability of the contractor’s corrective actions.
       This occurred because the CORs did not comply with War Reserve Materiel
       QASP requirements. As a result, U.S. Air Forces Central officials cannot be
       certain that the contractor adequately performed services that met War Reserve
       Materiel contract quality standards for more than half of the contract life.
       (Report No. D-2009-108)

Criteria for Using DCAA
DCAA’s mission is to perform services regarding contracts and subcontracts to all DOD
components responsible for procurement and contract administration. The DCAA
Contract Audit Manual 7640.1, “Defense Contract Audit Manual,” prescribes auditing
policies and procedures and furnishes guidance in auditing techniques for personnel
engaged in the performance of the DCAA mission.

DCAA Contract Audit Manual, volume 1, section 6-1007 states that a contractor’s
continued participation in the direct billing program will be based on the results of
DCAA ongoing surveillances of the contractor’s billing systems. DCAA must perform
annual testing of paid vouchers to determine whether the contractor’s internal controls
can be relied on for the preparation of public vouchers. The sampling plan used to test
paid vouchers should be documented and updated annually.

                                            17

Report Example of DCAA
       DCAA personnel allowed inaccurate interim public vouchers to be submitted
       directly to and paid by the Defense Financial and Accounting Service. This
       occurred because DCAA personnel failed to perform required surveillance of
       DynCorp’s billing system and annual testing of paid interim public vouchers. As
       a result, Air Force Central Command officials may have overpaid for services that
       DynCorp performed, paid for services that DynCorp did not perform, paid interim
       public vouchers that DynCorp did not prepare and submit in accordance with the
       contract requirements, and used inappropriate funds. (Report No. D-2009-108)

Criteria for Using DCMA
The DCMA mission statement states that for those contracts delegated to DCMA through
the Joint Contracting Command- Iraq/Afghanistan concept of operations and delegation
process, DCMA provides contract administration services to U.S. Central Command and
subordinate commands in Southwest Asia to ensure delivery of quality products and
services to the warfighter-on time and on cost. Additionally:

              Before contract award, DCMA provides advice and services to help
              construct effective solicitations, identify potential risks, select the most
              capable contractors, and write contracts that meet the needs of DOD
              customers in Federal and allied government agencies.

              After contract award, DCMA monitors contractors’ performance and
              management systems to ensure that cost, product performance, and
              delivery schedules are in compliance with the terms and conditions of
              the contracts.

Report Examples of DCMA
       Oversight of the military units’ water supply operations did not occur as required.
       DCMA is responsible for oversight of the contractor’s operations. However,
       oversight officials from the Multinational Force-Iraq Office of Resources and
       Sustainment, Multinational Corps-Iraq Preventive Medicine and its detachments,
       Defense Contract Management Agency Iraq/Afghanistan, Logistics Civil
       Augmentation Program, and Kellogg, Brown, and Root did not coordinate their
       oversight efforts and lacked comprehensive inventories of water storage
       containers; therefore, they were unaware of all water storage sites, and their
       locations, to visit. As a result, from October 2005 through June 2006 at Camp Q-
       West, the local brigade medical sick-call records showed 38 cases that an
       attending medical official said could be attributed to water, such as skin
       abscesses, cellulitis, skin infections, and diarrhea. (Report No. D-2008-060)

       DCMA inspected the M2 gun parts at the contractor’s facility and inappropriately
       approved them for shipment. DCMA inspection records in the contract file
       lacked adequate documentation on exactly what DCMA inspected and
       accepted. Specifically, at least 7,100 items did not conform with quality
       standards for 24 of the 103 contracts, including parts that contractors
       manufactured incorrectly, parts that did not meet specific quality standards, and

                                                  18

       parts that contained inadequate phosphate surface coating to prevent corrosion.
       As a result, customers were provided nonconforming parts and had to generate
       product quality deficiency reports causing an increased risk on the warfighter who
       had to wait for critical M2 gun parts. (Report No. D-2010-035)

Criteria for Maintaining Written Procedures
DFARS Procedures, Guidance, and Information, 201.602-2(ii), states that a COR must
maintain a file for each assigned contract, and the file must include, at a minimum:

      a copy of the contracting officer’s letter of designation and other documentation
       describing the COR’s duties and responsibilities; and
      documentation of actions taken in accordance with the delegation or authority.

Report Examples of Written Procedures
       The Logistics Civil Augmentation Program office did not develop procedures for
       the oversight and reporting of the Logistics Civil Augmentation Program III
       contract. Because of the constant rotation of units in theater, the Logistics Civil
       Augmentation Program Deputy Program Director-Kuwait needs to ensure
       continuous communication. CORs rotate along with their military units every
       6 to 12 months; therefore, training should be conducted whenever new CORs are
       assigned to the Logistics Civil Augmentation Program contract. The training
       should focus on completing and understanding the review checklists and include
       techniques for assessing contractor performance. As a result, organizations
       involved in the transfer of work may not be fully aware of the procedures or their
       responsibilities, and the lack of awareness could delay planned transition
       timelines and disrupt the sequence of events planned for the transfer of work.
       (Report No. D-2009-114)

       According to the CORs and in-country CORs, the CORs are frequently rotated in
       and out of Afghanistan, but no record is maintained to document the dates of
       service. The Department of State Foreign Affairs Handbook states that CORs are
       expected to maintain a file documenting significant actions, such as copies of
       invoices, correspondence with the contractor, documentation of acceptability of
       goods and services, and documentation of site visit results. However, none of this
       documentation was maintained in the COR file. Therefore, because the COR files
       are not readily available to others and may not be complete, incoming or acting
       in-country CORs may not have the information and institutional knowledge they
       need to properly administer and monitor the contract. (Report No. D-2010-042)

7. Inherently Governmental Functions
Inherently governmental functions are those that are intimately related to the public
interest, thereby requiring performance by Government employees. Additionally,
inherently governmental functions include activities that require the exercise of discretion
in applying Government authority or the making of value judgments in making decisions
for the Government. Inherently governmental functions fall into two categories: the act
of governing (the discretionary exercise of Government authority) and monetary
                                            19

transactions and entitlements. Contracts should not be issued or awarded for the
performance of inherently governmental functions. Examples of inherently governmental
functions include:

      awarding contracts and approving contractual documents; 

      administering contracts; 

      determining whether contract costs are allowable, allocable, and reasonable; 

      determining what supplies or services are to be acquired by the Government; and 

      determining the disposal of Government property. 


Criteria for Performing Inherently Governmental Functions
FAR Subpart 2.101, “Definitions,” defines an inherently governmental function as a
function that is so intimately related to the public interest as to mandate performance by
Government employees. These functions include activities that require either discretion
in applying Government authority or judgment in making decisions for the Government.

FAR Subpart 7.503, “Inherently Governmental Functions Policy,” provides examples of
inherently governmental functions including:

      determining what supplies or services are required by the Government; 

      approving any contractual documents to include documents defining 

       requirements, incentive plans, and evaluation criteria; 

   		 administering contracts, which includes ordering changes in contract performance
       or contract quantities, taking action based on evaluations of contractor
       performance, and accepting or rejecting contractor products or service;
    determining whether contracts are allowable, allocable, and reasonable; and
    directing and controlling Federal employees.

FAR Subpart 37.114, “Special Acquisition Requirements,” states that contractors
working in situations where their contractor status is not obvious to third parties are
required to identify themselves as contractors. This avoids creating an impression in the
minds of members of the public or Congress that they are Government officials, unless,
in the judgment of the agency, no harm can come from failing to identify themselves.
Agencies must ensure that all contractor personnel attending meetings, answering
Government telephones, and working in other situations where their contractor status is
not obvious must identify themselves.

Report Examples of Contractors Performing Inherently Governmental
Functions
       Special Operations Forces Support Activity management allowed contractors
       working for the Special Operations Forces Support Activity Business
       Management Division to perform inherently governmental functions.
       Specifically, management and contracting personnel allowed contractors to
       administer task orders, determine what supplies or services the Government
       required, and approve contractual documents. The contractors performing

                                            20

       inherently governmental functions did not identify themselves as contractors. For
       example, in 3 of 46 task orders, valued at approximately $18 million, contractors
       working for the Special Operations Forces Support Activity signed contractual
       documents as a Special Operations Forces Support Activity representative. In
       addition, contracting personnel took direction and implemented contract changes
       from contractors working for their customers. These conditions occurred because
       the Special Operations Forces Support Activity lacked internal controls and
       standard operating procedures on the performance of inherently governmental
       functions. As a result, Special Operations Forces Support Activity may not have
       correctly administered and protected the best interests of the Government for
       approximately $82 million in task orders issued under the Special Operations
       Forces Support Activity contracts. (Report No. D-2009-083)

       U.S. Air Forces Central personnel did not provide adequate Government oversight
       and allowed contractor personnel to perform inherently governmental functions
       by providing project oversight. U.S. Air Forces Central personnel relied on the
       contractor to administer oversight of the contractor’s own performance.
       Additionally, U.S. Air Forces Central personnel did not accept Minor Military
       Construction projects on behalf of the Government and instead allowed the
       contractor to perform inherently governmental functions by accepting the Minor
       Military Construction projects. For example, the contractor completed a
       sandblasting facility in February 2008 but the COR found that the facility was
       non-operational during a special surveillance conducted on June 22, 2008. The
       COR identified seven deficiencies that affected facility operations and determined
       that the facility had not operated effectively since DynCorp’s acceptance in
       February 2008. (Report No. D-2009-108)

8. Property Accountability
Property administration is conducted in order to administer the terms of contract
provisions that specify the contractor’s obligations to acquire, control, use, care for,
report, and dispose of Government property. The contracting officer is responsible for
property administration but can delegate responsibility to the contract administration
office. A property administration program should be determined by the complexity of the
contractor’s property control system, the amount of Government property, and other
conditions revealed by review of the contracts and correlation of their provisions with the
property control system. Use of commercially established property management
practices are encouraged unless they are in conflict with contractual requirements or
create an unacceptable risk to the Government. It is the Government’s policy to rely
upon Government contractors to be accountable for and maintain official records of
Government property in their possession. The effectiveness of contractor records and
other aspects of contractor property control systems are reviewed through Government-
conducted property system analyses. Figure 5 shows U.S. Service Members mentoring
the Afghan National Army on how to handle munitions logistics.




                                            21


 Figure 5. U.S. Service Members Mentor the Afghan National Army on the Proper
                 Organization, Storage, and Shipment of Munitions




 Source: www.defenseimagery.mil

Criteria for Maintaining Property Accountability
DOD Instruction 5000.64, “Accountability and Management of DOD-Owned Equipment
and Other Accountable Property,” November 2, 2006, requires that DOD Components
establish records and maintain accountability for Government property furnished to
contractors. Accountable property records must include the current status and location of
the property. At a minimum, an accountable property system of record should include:

      name, part number, and description; 

      quantity and status of the property; 

      unique item identifier; 

      location of property; and 

      transaction dates. 


In addition, DOD Instruction 5000.64 states that accountable property records shall be
established for all property purchased, or otherwise obtained that are sensitive or
classified. DOD 4100.39-M “Defense Federal Logistics Information System,” defines
small arms, ammunition, explosives, and demolition materiel as sensitive items that
require a high degree of protection and control.

Report Examples of Property Accountability
       The Multi-National Security Transition Command-Iraq was not always able to
       demonstrate proper accountability for and management of services, equipment,
       and construction purchased through the Iraq Security Forces Fund and could not
       always demonstrate that the delivery of services, equipment, and construction was
       properly made to the Iraq Security Forces. Specifically, Multi-National Security

                                           22


       Transition Command-Iraq does not have a process for tracking Iraq Security
       Forces Fund-purchased equipment during the transfer of that equipment to Iraq
       Security Forces. Consequently, there is no end-to-end audit trail for tracking
       equipment purchased through the Iraq Security Forces Fund. For example, Multi-
       National Security Transition Command-Iraq could not account for 18 of 31 heavy
       tracked recovery vehicles valued at $10.2 million because a disconnect in the
       audit trail occurred at the time of Government receipt in Umm Qasr, Iraq, when
       vehicle identification numbers were not recorded. (Report No. D-2008-026)

       DoD considers the implementation of Requiring Radio Frequency Identification a
       strategic necessity to deliver supplies to the warfighter more quickly and allow
       tracking of materiel throughout the supply chain. These supply contracts are used
       to purchase such items as weapon system components, equipment, petroleum,
       clothing, rations, medical material, and repair parts. To create an automated and
       sophisticated end-to-end supply chain, DoD must initiate Requiring Radio
       Frequency Identification technology at the point of origin, DoD commercial
       suppliers. Unless suppliers—as well as contracting officers, depot commanders,
       and depot personnel—comply with Requiring Radio Frequency Identification
       policies, DoD cannot achieve a fully integrated, highly visible, automated end-to­
       end supply chain. The report found that contracting officers awarded 23 of
       220 supply contracts (10 percent) without the required Requiring Radio
       Frequency Identification clause and that suppliers for 84 of the 197 (43 percent)
       with the required clause, did not apply Requiring Radio Frequency Identification
       tags to shipments they sent to depots. Therefore, without all parties appropriately
       using the Requiring Radio Frequency Identification tracking system, the
       Government is unable to ensure property accountability was met for the supply
       contracts reviewed. In addition, if Requiring Radio Frequency Identification is
       not fully implemented across DoD as intended, Defense Logistics Agency will
       have spent $12.2 million on an automated process that must be supplemented by
       manual input, surveillance, and corrective measures. (Report No. D-2008-135)

9. Award Fees
The objective of an award fee is to create an incentive for contractor performance in areas
that are most critical to the Government. Award fee contracts must be structured in ways
that will focus the Government’s and contractor’s efforts to meet or exceed cost,
schedule, and performance requirements. The contracting officer, in consultation with
the program manager and fee determining official, is required to create the award fee
criteria included in the Award Fee Plan. Additionally, award fee provisions must clearly
explain how a contractor’s performance will be evaluated. The ability to earn award fees
must be directly linked to achieving desired program outcomes. The fee determining
official reviews the recommendations of the Award Fee Board to determine the amount
of award fee earned by the contractor for each evaluation period according to the award
fee plan. The amount of award fee earned must correspond to the contractor’s overall
cost, schedule, and technical performance as measured against contract requirements. In
addition, the basis for award fee determinations must be documented in the contract file


                                            23


to include, at a minimum, a determination that overall cost, schedule, and technical
performance is or is not at a satisfactory level.

Criteria for Administering Award Fees
FAR Subpart 16.405-2, “Cost-Plus-Award-Fee Contracts,” states that an award fee is an
award amount that the contractor may earn in whole or in part during performance and
that is sufficient to provide motivation for excellence in such areas as quality, timeliness,
technical ingenuity, and cost-effective management. The amount of the award fee to be
paid is determined by the Government’s judgmental evaluation of the contractor’s
performance in terms of the criteria stated in the contract. This determination and the
methodology for determining the award fee are unilateral decisions made solely at the
discretion of the Government.

Report Examples of Award Fees
       Navy Facilities Engineering Command contracting officials did not adequately
       support the award fee determinations for the hurricane recovery task orders.
       Specifically, the Navy failed to capture the information needed to effectively
       assess how well the contractor controlled costs and did not reconcile the
       contracting officers’ and technical representatives’ assessments against each other
       or the characteristics identified in the award fee plan. Moreover, despite
       numerous performance deficiencies, the Navy authorized the contractor to be paid
       94 percent of the available fee for the task orders reviewed for what appeared to
       be marginal-to-average performance. As a result, Navy Facilities Engineering
       Command is paying nearly all of the available award fees to the contractor,
       regardless of whether the acquisition outcomes fell short, met, or exceeded
       expectations, which demotivates the contractor to strive for excellent
       performance. (Report No. D-2008-097)

       The U.S. Air Forces Central War Reserve Materiel contracting officer may have
       overpaid award fees for work that was not performed across the entire award fee
       period and may have authorized additional award fee for contractor performance
       that was not evaluated. Additionally, U.S. Air Forces Central officials improperly
       calculated award fee pools and did not adequately support final award fee
       determinations. These conditions occurred because U.S. Air Forces Central
       officials did not comply with basic contract requirements for calculating award
       fees. As a result, U.S. Air Forces Central officials inappropriately authorized an
       additional $893,160 in award fees, overpaid the contractor by approximately
       $195,000, and cannot justify 4 of 17 final award fee determinations.
       (Report No. D-2009-108)

10. Financial Management
DOD officials are responsible for ensuring that DOD organizations maintain control of
payments made to vendors and contractors. The maintenance of complete, consistent,
and accurate contract files and accounting records is necessary to reduce the potential for
violations of the Antideficiency Act and minimize the number and dollar value of
problem disbursements. Expenses billed to the Government are limited to costs that are

                                             24


allowable, allocable, and reasonable. In addition, payments made by the Government
should directly correlate to a contractual document, contractor invoice, and acceptance or
receiving report. Government payments must also comply with the Prompt Payment Act.
The following figure depicts a budget analyst managing reimbursements in southwest
Asia.

Contracting deficiencies related to financial management consist of three subcategories:
billing, payments, and potential Antideficiency Act violations.

       Figure 6. A Budget Analyst Manages Contractor and Coalition Partner 

                        Reimbursements in Southwest Asia 





             Source: www.defenseimagery.mil

Criteria for Determining Entitlement of Billings
DOD FMR, volume 10, chapter 1, states that payment cannot be made without
determining entitlement to the payment. Further, receipt of a “proper” invoice, proof of
receipt, and acceptance, as well as the contract terms and conditions, determine
entitlement. According to the DOD FMR, volume 10, chapter 8, “Commercial Payment
Vouchers and Supporting Documents,” May 2008, a contractor is “entitled” to payment
when the contracting officer issues a contract, prepares a receiving report, and approves
the invoice a contractor submits for payment.

The FAR states that expenses billed to the Government are limited to costs that are
allowable, allocable, and reasonable.

Report Examples of Incorrect Billings
       U.S. Army Space and Missile Defense Command/Army Forces Strategic
       Command and Counter Narcoterrorism Technology Program Office officials did
       not ensure that the contractors were fully entitled to the $47.9 million paid on the
       Counter Narcoterrorism Technology Program Office indefinite-delivery,
       indefinite-quantity task orders since contracting officials did not require that
       CORs review contractor bills. Neither the contracting officers nor the CORs
                                              25
       required the contractors to provide supporting documents that described the
       amounts they billed for labor categories and rates, travel, materials, and other
       direct costs. For instance, one bill sent to the Government indicated that the
       contractor provided “material” for approximately $1.3 million but did not
       describe or list the material provided. Another contractor bill sent to the
       Government indicated that the contractor had approximately $112,500 of travel
       expenses without describing or itemizing the travel being claimed. Furthermore,
       the U.S. Army Space and Missile Defense Command/Army Forces Strategic
       Command contracting officer failed to formalize an agreement with DCMA
       officials to certify that goods and services billed by the contractors were received.
       As a result, DOD officials paid the contractors for goods and services that may
       not have been allowable or reasonable. (Report No. D-2009-109)

       The Bureau of International Narcotics and Law Enforcement Affairs Afghanistan,
       Iraq, and Jordan Support personnel did not conduct sufficient invoice reviews as
       required by their delegation letters. These invoice reviews are necessary to
       determine whether the contractor was entitled to payment for submitted invoices,
       or to prepare and maintain the supporting documents necessary to show contractor
       entitlement to payment. Even though this review was in accordance with the
       Prompt Payment Act, the process did not address whether contractor invoices
       costs were allowable, allocable, or reasonable. The Afghanistan, Iraq, and Jordan
       Support personnel emphasized that they had identified $322 million in invoices
       that were approved even though they were not allowable, allocable, or
       reasonable. Furthermore, the Invoice Reconciliation Team estimated that
       approximately 50 percent of the approved invoices had errors. This occurred
       because Department of State CORs that were responsible for overseeing DOD
       funds did not follow internal control procedures that established that in-country
       CORs were to review contractor invoices to determine if the costs were allowable,
       allocable, or reasonable prior to payment and validate deliverables. As a result,
       Department of State officials incorrectly paid the contractor for goods and
       services under two of the task orders supporting the Afghan National Police
       contract. (Report No. D-2010-042)

Criteria for Authorizing Contract Payments
FAR 32.905, “Payment Documentation and Process,” states that a payment will be based
on receipt of proper invoice and satisfactory contract performance.

DOD FMR, volume 11a, chapter 3, section 030502, states that payment shall be made
promptly upon the written request (or billing) of the agency or unit filling the order.
Payment may be made in advance or upon delivery of the services, equipment, and
construction ordered and shall be for any part of the estimated or actual cost as
determined by the agency or unit filling the order. A bill submitted or a request for
payment is not subject to audit or certification in advance of payment. Proper adjustment
of amounts paid in advance shall be made as agreed to by the heads of the agencies or
units on the basis of the actual cost of services, equipment, or construction provided.


                                            26


According to the Foreign Affairs Handbook, volume 14, handbook 2, “Contracting
Officer’s Representative,” the COR must maintain a copy of all invoices and vouchers
and a payment register, indicating the balance of funds remaining. Without these
necessary documents, it is impossible to determine whether invoices approved for
payment by the COR were allowable, allocable, or reasonable within the contract scope.

The United States Code (31 U.S.C. 3325) requires the agency to “disburse money only as
provided by a voucher certified by an officer or employee of the executive agency having
written authorization from the head of the agency to certify vouchers.” The DOD FMR
implements 31 U.S.C. 3325 by providing guidance on the authorization and certification
of payment vouchers and the separation of duties between the certifying and disbursing
officials.

Report Examples of Incorrect Payments
       The internal controls over commercial payments made by seven Army
       contingency disbursing stations were inadequate for commercial payment support.
       We estimate that the Army made $1.4 billion in commercial payments that lacked
       minimum documentation to make a valid payment. We also estimate that the
       Army made an additional $6.3 billion of commercial payments that did not
       comply with other statutory and regulatory requirements. Specifically, there were
       125 payments not supported by the minimum documentation and information,
       which includes properly prepared receiving reports, invoices, and certified
       vouchers. An additional 537 commercial payments had the minimum
       documentation required but did not meet other documentation and information
       requirements, such as taxpayer identification number, method of disbursement,
       and contact information. In addition, DOD did not ensure that $1.8 billion of
       seized and vested assets payments made to Iraqi representatives were adequately
       accounted for and auditable. In addition, DOD did not maintain a complete audit
       trail for $134.8 million in Commander’s Emergency Response Program payments
       made to representatives of foreign governments. As a result, DOD was unable to
       provide reasonable assurance that the seized and vested asset funds were
       accounted for as prescribed and that Commander’s Emergency Response Program
       funds provided to Coalition Partners were used for the purposes intended.
       (Report No. D-2008-098)

       United States Marine Corps officials did not properly authorize vouchers for
       9,675 payments totaling $310.4 million in accordance with 31 U.S.C. 3325 and
       the DOD FMR. In addition, the Marine Corps officials used disbursing personnel
       to both certify vouchers and make disbursements, duties that should have been
       performed by separate personnel. As a result, United States Marine Corps
       payments are at increased risk for unauthorized modification, erroneous
       payments, or disclosure of classified information. The report found that the
       Marine Corps officials made 32 duplicate payments, totaling $2.5 million, and did
       not take collection on these erroneous payments. These duplicate payments
       included instances where the United States Marine Corps overpaid a vendor


                                          27

       $225,064 by paying the same invoice three times and paid for the same invoice
       and receiving report at multiple locations. (Report No. D-2010-037)

Criteria for Identifying Potential Antideficiency Act Violations
The Antideficiency Act is codified in 31 U.S.C. 1301 and other sections. The purpose of
the Antideficiency Act is to enforce the constitutional budgetary powers of Congress with
respect to the purpose, time, and amount of expenditures made by the Federal
Government. Specifically, 31 U.S.C. 1301—the Purpose Statute—states that an
appropriation must be applied to objects that the appropriations were made for, except as
otherwise provided by law. In addition, 31 U.S.C. 1341 states that an officer or employee
of the U.S. Government may not authorize an amount that exceeds the expenditure or
appropriation threshold.

According to 31 U.S.C. 1502(a), appropriations are available only for the bona fide needs
of an appropriation’s period of availability. The bona fide needs rule states that the
balance of an appropriation or fund limited for obligation to a definite period is available
only for payment of expenses properly incurred during the period of availability, or to
complete contracts properly made within that period of availability and obligated
consistent with 31 U.S.C. 1501. However, the appropriation or fund is not available for
expenditure for a period beyond the period otherwise authorized by law.

Volume 3, chapter 15 of the DOD FMR states that, at fiscal year end, installations must
ensure that obligations are accurately stated in view of the most current information
available. Installations should review and validate unfilled project orders funded by
expiring accounts, cancel orders that will not be started by January 1 of the ensuing fiscal
year, and review estimated obligations for possible overstatement or understatement.

Report Examples of Potential Antideficiency Act Violations
       The Army Technology Applications Program Office did not comply with
       appropriations laws and regulations when funding a task order. This occurred
       because the Technology Applications Program Office incorrectly funded the task
       order with $63.6 million in procurement funds, when it should have funded the
       task order with Research, Development, Test, and Evaluation funds. The task
       order increased the performance envelope of a major end item already in
       production and required the developmental testing of the new prototype. This
       may have caused a violation of section 1341, title 31, United States
       Code. (Report No. D-2009-083)

       The U.S. Air Forces Central War Reserve Materiel contracting officer obligated at
       least $6 million in Operations and Maintenance funds for Minor Military
       Construction projects in 1 fiscal year when the projects were not programmed and
       approved until a later fiscal year. For example, U.S. Air Forces Central officials
       obligated FY 2003 funds for 39 MMC projects that were not approved until FY
       2004 or later. In some cases, Minor Military Construction requirements were not
       approved until 4 years after U.S. Air Forces Central personnel claimed the War
       Reserve Materiel contracting officer obligated funds. This occurred because the

                                             28

War Reserve Materiel contracting officer did not consistently apply the bona fide
needs rule when executing Minor Military Construction projects with Operations
and Maintenance funds. In addition, we could not determine whether $50 million
obligated to the War Reserve Materiel contract for Minor Military Construction
violated the bona fide needs rule because the contract modifications did not
properly identify the Minor Military Construction projects or link obligated funds
to specific Minor Military Construction projects. As a result, the War Reserve
Materiel contracting officer used expired Operations and Maintenance funds to
execute Minor Military Construction projects and may have violated the
Antideficiency Act. (Report No. D-2009-108)




                                    29


What Has Been Done Based On Our Audits
We reviewed 32 Audit reports and 2 SPO reports that involve high-risk areas of contract
management and identify actions that need to be taken to correct future contracting
issues. The following encompasses the recommendations made and the actions taken.

Requirements2
We made 16 recommendations addressing inadequate requirements. Nine of the
16 recommendations are closed3 and 7 remain open.4 Our recommendations were for
management to ensure all requirements are fully defined and properly compete all
requirements in accordance with the Competition in Contracting Act. For example, we
recommended that the Executive Director, Logistics Civil Augmentation Program, ensure
that performance work statements accurately reflect warfighter requirements. According
to the Logistics Civil Augmentation Program Project Management Office, to correct this
issue they have developed and trained the Iraq, Afghanistan, and Kuwait Deputy Program
Directors and their staffs on the Logistics Civil Augmentation Program IV requirements
generation process to development appropriate performance work statements.

Contract Documentation
Thirty recommendations were made to correct contract documentation. Seventeen of
these are closed; the remaining 13 are open. Generally, we recommended that
management develop and maintain a contract file that could reconstruct the history of the
contract and provide adequate documentation to support all contractual actions. For
example, we recommended that the Commander, U.S. Army Contracting Command,
Southwest Asia-Kuwait, comply with FAR Subpart 4.8, “Government Contract Actions,”
regarding the retention of sufficient contract files that would constitute a complete history
for contracts under its purview. The U.S. Army Contracting Command, Southwest Asia-
Kuwait office has re-established management control processes to correct and improve
contract file maintenance in accordance with FAR Subpart 4.8.

Contract Type5
We made 12 recommendations addressing the selection of contract type. Two of the
12 recommendations are closed and 10 remain open. For example, we recommended that
the Executive Director, Logistics Civil Augmentation Program, require the procuring
contracting officer to establish a plan to identify goods and services within the task orders
that could be acquired using firm-fixed-price, and develop firm-fixed-price task order
requirements. In response, the Commander, U.S. Army Sustainment Command, stated


2
  Requirements consist of two subcategories: Unclear/Changing requirements and Out of Scope


requirements. 

3
  A closed recommendation means that the actions taken by management satisfied the intent of the 

recommendation. 

4
  An open recommendation is a recommendation that we are still tracking to ensure that agreed-upon


actions are implemented.


5
  Contract type consists of three subcategories: firm-fixed-price, cost type, and commercial acquisition. 


                                                     30

that for future task order competitions, the contracting will document the rationale for the
contract type selected in the competition plan.

Source Selection
We made seven recommendations addressing contract source selection. Three of the
seven recommendations are closed and four remain open. For example, we
recommended that the Commander, Marine Corps Systems Command, direct the
Assistant Commander for Contracts to ensure that future procurements for Mine
Resistant Ambush Protected vehicles are properly competed or justified on a sole-source
basis. In response, the Marine Corps Systems Command incorporated the
recommendation into its acquisition strategies for the Mine Resistant Ambush Protected
vehicle Category II and sole-source award Mine Resistant Ambush Protected vehicle
Category III procurements.

Contract Pricing
We made 34 recommendations addressing contract pricing. Twenty of the 34 recom­
mendations are closed and 14 remain open. For example, we recommended that the
Commanding Officer, Naval Facilities Engineering Command Southeast, request a
refund of $1.4 million from Kellogg, Brown, and Root for the unreasonable lease charge
and fees associated with cooking equipment purchase by Commercial Marketing
Corporation. As a result of the recommendation, the Naval Facilities Engineering
Command Southeast withheld $1.6 million from invoices for unreasonable lease charges,
fees, and applicable overhead costs associated with the subcontract with Commercial
Marketing Corporation. On March 5, 2009, DCAA disapproved $1.6 million of contract
costs. On May 1, 2009, the Naval Facilities Engineering Command Southeast issued a
Contracting Officer Final Decision to Kellogg, Brown, and Root, demanding payment of
$1.6 million. Additionally, the Naval Facilities Engineering Command Southeast
executed two deductive contract modifications to recover the funds.

Oversight and Surveillance6
We made 155 recommendations to improve oversight and surveillance. Ninety-five of
the 155 recommendations are closed and 60 remain open. Generally, we recommended
that management develop a QASP and properly designate and train CORs. For example,
we recommended that the Commander, U.S. Army Corps of Engineers, Gulf Region
Division, develop and implement a QASP for transportation services, specifically for
future contracts, that clearly outlines roles and responsibilities for monitoring contractor
performance. As a result of the recommendation, the contracting officer issued a
modification to incorporate a QASP into the contract. The QASP identified the roles and
responsibilities of quality assurance personnel and specifically requires quality assurance
personnel to administer and monitor the contractor’s performance for the contracting
officer.



6
 Oversight and surveillance consists of six subcategories: Acceptance, Contracting Officer, COR, DCAA,
DCMA, and Written Procedures.

                                                  31

Inherently Governmental Functions
We made 12 recommendations to eliminate the performance of inherently governmental
functions by contractors. Four of the 12 recommendations are closed and 8 remain open.
For example, we recommended that the Director, Special Operations Forces Support
Activity, develop internal controls to ensure that Special Operation Forces Support
Activity Business Management Division contractors and Government personnel follow
all elements of the FAR regarding inherently governmental activities. To prevent future
inherently governmental issues, the Special Operations Forces Support Activity
implemented an internal policy that directs all Special Operations Forces Support
Activity contractors to clearly identify themselves as contractors in all situations where
their contractor status is not obvious. Additionally, the internal policy states that Special
Operations Force Support Activity contractors are not authorized to sign or approve
contractual documentation, including documentation that defines requirements.

Property Accountability
We made 66 recommendations to improve property accountability. Forty-two of the
66 recommendations are closed and 24 remain open. For example, we recommended that
the Director, Gulf Region Division Contracting Division, reconcile and resolve inventory
discrepancies with the contractor. As a result, Gulf Region Division Internal Review
evaluators compared December 2008 inventory reports and found a difference of
10 vehicles, or 1.5 percent, because different counting methods were used to create the
reports.

Award Fee
We made eight recommendations addressing the award fee process. Two of the eight
recommendations are closed and six remain open. For example, we recommended that
the Commander Officer, Naval Facilities Engineering Command Atlantic, establish
procedures to verify that award fee assessments made by the contracting officer and
technical representatives are reconciled against each other and ensure that written
statements matched the performance ratings. In response to the recommendation, the
Global Contingency Construction Standard Operating Procedures Users Guide was
revised to address the award fee process. Specifically, the Global Contingency
Construction Standard Operating Procedures Users Guide requires the contracting officer
to collect the award fee evaluation from the technical representatives, but allows the
contracting officer to provide input.

Financial Management7
We made 49 recommendations addressing financial management. Eighteen of the
49 recommendations are closed and 31 remain open. For example, we recommended that
the Director, Gulf Region Division Contracting Division, review all prior invoices and
reconcile the services received and services billed with the contractor. To address this


7
 Financial Management consists of three subcategories: Billing, Payments, and Potential Antideficiency
Act Violations.

                                                   32

issue, all elements of the task order will be reviewed by the U.S. Army Corps of
Engineers and the Army Audit Agency, including invoice reconciliation, as part of the
closeout process.




                                           33


What Needs To Be Done
The effectiveness of contractor support for expanded U.S. operations in Afghanistan
could be compromised by the failure to extract and apply lessons learned from Iraq. As
we surge into Afghanistan, is it critical that we review the shortfalls identified and
develop a framework to achieve better contracting for contingency operations in
Afghanistan and future contingencies. Based on our review of the reported deficiencies,
we believe the following steps need to be taken to improve the contracting process in
current and future contingency operations. These steps are not all-inclusive in a
contingency contracting environment and should be considered in unison with Federal
and DOD guidance and the contracting process flow chart (See page iii).

      Contract Documentation
          Complete and detailed documentation is essential to all phases of the
          contracting process. The contracting officer should ensure that a complete
          and well-documented contracting file, to include pre-award consideration on
          requirements, acquisition strategy, pre-award pricing, the basic contract, and
          all the modifications or task orders, exists for the life of the contract. The
          contracting officer should ensure appropriate financial management occurs for
          the life of the contract to include the type and amount of funds being obligated
          to the contract.

      Requirements
          Program personnel must ensure that clear, complete, well-defined
          requirements exist for the entire contract. When conditions do not allow for
          clearly defined requirements for the entire contract, the contracting officer
          should use a type of contract structure that allows well-defined requirements
          to be developed for segments of work, such as task orders or basic ordering
          agreements.

      Acquisition Strategy
          Contracting officers must prepare an acquisition strategy that considers the
          contract type, a source selection strategy, a pricing strategy, and funding.
          When preparing the acquisition strategy, program personnel should document
          market research to assist in establishing a source selection strategy and must
          develop a detailed, specific solicitation.

      Contract Type
         When determining whether the contract should be fixed price or a cost-type,
         the contracting officer should consider the procurement history and, if
         applicable, evaluate prior work to support the contract type decision.
         Contracts should be structured to allow for fixed price and cost-type line items
         when appropriate. Contract type is important to future surveillance
         considerations. The more cost-type work that is included, the more
         surveillance assets will be required.

                                           34

   Source Selection
       The contracting officer must have well-defined and measurable source
       selection criteria and well-documented selection decisions that appropriately
       discuss price and technical tradeoffs for competitive procurements. For
       negotiated procurements, prices must be properly supported and documented.

   Contract Pricing
      The contracting officer should have robust pre-award pricing support. As a
      general rule, DCAA is used to provide pricing support for pre-award
      proposals for contract cost support and DCMA is used to provide technical
      support for labor hours, labor mix, and procurement quantities. To the extent
      available, DCAA and DCMA should be brought into the process early and
      used throughout the life of the contract. In addition, for cost-type contracts,
      DCAA should review the accounting and business system of the proposed
      contractors. Contractors must be able to account for and properly record
      costs. If DCAA and DCMA are not used, suitable pricing and technical
      expertise or both should be used. Furthermore, pricing and technical support
      decisions should be detailed and documented.

       All aspects of the negotiation, specifically the price negotiation memorandum,
       should be documented in detail to allow an independent party to understand
       the conclusions negotiated. The contracting officer must have certified cost or
       pricing data for sole-source procurements unless an exception applies. If
       certified cost or pricing data are used in negotiation, the contracting officer
       should document that he or she relied on the data. If an exception applies,
       other cost or pricing data should be obtained to the extent necessary.
       Comparison of independent government cost estimates to proposed price
       should normally not be the primary or only basis for establishing price
       reasonableness. Independent government cost estimates, when used, should
       be detailed and well-documented as to the basis for the supporting
       documentation. Use of prior price history for other contracts should be
       closely scrutinized. Relying on prior prices without knowing how those prices
       were established or the scope of the other awards relative to the anticipated
       procurements does not provide an appropriate comparison. As an example,
       prior prices on a contract action for $200,000 likely could not be relied on to
       establish price reasonableness for a newly proposed contract for $3 million.

   Oversight and Surveillance
       Both program and contracting personnel must ensure a well-documented
       surveillance approach is in place. QASPs and surveillance logs should be
       measurable and documented to show the quality and quantity of actual
       surveillance performed. Because of the magnitude of surveillance issues
       found in our audit work, a robust surveillance system is essential. Program
       and contracting personnel must ensure that sufficient contract oversight occurs
       and that oversight personnel are adequately trained.


                                        35

       When evaluating the amount of oversight needed for a contract, the following
       should be considered:
              o contract type,
              o products versus services,
              o criticality of product and service, and
              o number of locations.

       For example, a cost-type service contract with contract performance at
       multiple locations will require a much more robust oversight staff. Contracts
       that allow for award fee should be well documented with measurable criteria,
       and award fee decisions must be well documented. Contract oversight
       personnel should perform realistic and measurable reviews and ratings of
       contractor performance. It is crucial that contractors do not perform
       inherently governmental functions such as oversight and surveillance,
       especially for cost-type contracts.

   Acceptance and Payment
       The contracting officer should ensure that the Government is accepting the
       supplies and services being provided by the contractor and that acceptance
       and inspection are adequately documented. Additionally, the contracting
       officer should ensure that a documented process is in place for the review and
       approval of interim vouchers including requirements for detailed supporting
       documentation to be included with the payment voucher. DCAA should be
       included in the interim voucher review process whenever possible.

       There is a critical shortage of qualified contract management personnel in
       theater and those who are there are stretched too thin. In particular, the
       process for designating and training CORs to check contractor performance in
       theater is broken. DOD should accelerate its plans to establish a contracting
       command in Afghanistan. The troop surge in Afghanistan demands that
       contracting oversight be conducted in country rather than from Iraq, which is
       currently the case.




                                       36


Appendix A. Scope and Methodology
This non-audit service report is to provide DOD field commanders and contract managers
with the systemic contracting issues identified in DOD IG products issued from
October 1, 2007 through April 1, 2010, that involve high-risk areas of contract
management and identify actions that need to be taken to correct these issues for future
contracting. Specifically, we reviewed 32 Audit reports and 2 SPO reports related to
contracting in contingency operations with the primary focus being work done in Iraq and
Afghanistan. In addition, we reviewed 19 DCIS investigations dealing with contingency
contracting issues. (Appendix C)

We reviewed the findings, conclusions, and recommendations contained in these
34 reports and 19 DCIS investigations; however, we did not review the supporting
documentation from any of these reports. Based on our review, we grouped the
deficiencies discussed in the products into the following 10 issue areas in the contracting
process:

       1. Requirements,
       2. Contract Documentation,
       3. Contract Type,
       4. Source Selection,
       5. Contract Pricing,
       6. Oversight and Surveillance,
       7. Inherently Governmental Functions,
       8. Property Accountability,
       9. Award Fees, and
       10. Financial Management.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the DOD IG issued two reports on the summary of audit reports
dealing with contingency contracting. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports/.

DOD IG
DOD IG Report No. D-2009-071, “Summary of DOD Office of Inspector General Audits
of Acquisition and Contract Administration,” April 22, 2009

DOD IG Report No. D-2008-086, “Challenges Impacting Operations Iraq Freedom and
Enduring Freedom Reported by Major Oversight Organizations Beginning FY 2003
through FY 2007,” July 18, 2008



                                            37

Appendix B. Issue Areas by Audit Report 

                                                                                                                                                                                       Inherently
                                          Contract                                                 Source      Contract                                                                Governmental   Property         Award   Financial
               Requirements               Documentation   Contract Type                            Selection   Pricing    Oversight and Surveillance                                   Functions      Accountability   Fees    Management




                           Out of Scope




                                                          Firm- Fixed-




                                                                                     Commercial




                                                                                                                          Acceptance

                                                                                                                                       Contracting




                                                                                                                                                                          Procedures
                                                                                     Acquisition




                                                                                                                                                                                                                                         Payments
                Changing




                                                                         Cost type




                                                                                                                                                                                                                                                    Potential
                Unclear/




                                                                                                                                                                            Written
                                                                                                                                         Officer




                                                                                                                                                                   DCMA
                                                                                                                                                            DCAA
                                                                                                                                                     CORs




                                                                                                                                                                                                                               Billing
                                                             Price




                                                                                                                                                                                                                                                     ADA
Report #s
D-2008-026                                       X                                                                        X               X          X                      X                               X                            X
D-2008-038                                                                                                                X                                        X                                                                     X
D-2008-060                                       X                                                                                                                 X                                        X
D-2008-067       X                               X                                                                X
D-2008-097       X                               X                       X                                        X                       X                                                                             X
D-2008-098                                                                                                                                                                                                                               X
D-2008-107                                                                                                        X
D-2008-119       X                               X                                                                X       X               X
D-2008-135                                                                                                                                X                                                                 X
D-2009-007       X                                                                                                                                                                                          X
D-2009-041                                                                                            X           X                       X
D-2009-046                 X                                  X                                       X           X
D-2009-075                                                                                                                                                                                                  X
D-2009-076       X                               X                                                                X                       X                                                                                              X
D-2009-083                                       X                                                                                        X          X                                       X                                                      X
D-2009-085                                       X                                                    X                   X               X                                                                 X
D-2009-091       X                               X                                                                                        X
D-2009-095                                       X                                                                                        X          X                                                      X                            X
D-2009-096                                       X                                                                        X               X          X             X
D-2009-099                                                                                                                                                                                                  X
D-2009-100                                                                                                                                                                                                  X
D-2009-102                                       X                                                    X           X
D-2009-108       X         X                     X                       X                                        X       X               X          X      X                                X              X           X      X         X          X
D-2009-109                                       X            X          X              X                                 X               X          X                                                      X                  X         X          X
D-2009-114       X                                                       X                                                                                         X        X                               X           X
D-2010-022       X                               X                                                                X                       X                                                                 X
D-2010-027                                                                                                                                                                                                  X
D-2010-035                                       X                                                                        X               X                        X
D-2010-037                                       X                                                                                        X                                                                                              X
D-2010-042       X                               X                                                                        X               X          X      X               X                X              X                  X         X
D-2010-046       X                                                                                                                        X                        X
D-2010-049                                       X                                                                                        X                                                                             X
SPO-2009-006                                                                                                              X                                                                                 X
SPO-2009-007                                                                                                                              X          X             X                                        X

                                                                                                                          38


Appendix C. National Procurement Fraud
Task Force
Prosecuted Investigations
We reviewed 19 DCIS investigations involving fraudulent contracting activity in
Southwest Asia from October 1, 2007 through April 1, 2010. In order to better identify
the warning signs of fraudulent activities, we organized the investigations to fit within the
contracting process. However, not all areas are identified, but as discussed earlier in the
report, fraud can occur at any point in the process, so it is important to know how to
identify the indicators. Table C-1 on page 42 shows details of the 19 investigations.

Source Selection
    		 Richard E. Long entered into an agreement with WATEC, Inc. by which he would
        receive secret payments from WATEC, Inc. in exchange for Long’s
        recommendation that every water-purification contract be awarded to WATEC,
        Inc., either as the primary contractor or as a subcontractor. As a result, WATEC,
        Inc. was awarded contracts worth more than $66 million. WATEC, Inc. made
        payments to Long totaling approximately $549,700. Long was convicted of
        18 counts of bribery, 6 counts of wire fraud, and 1 count of money laundering.
        (Former Army Official and Tennessee Businessman Convicted in Water Contract
        Scheme, 2/19/2009)

    		 Terry Hall was charged with bribing two Army Majors who served as Army
        contracting officials at Camp Arifjan. According to the indictment, Hall operated
        several companies that had contracts with the U.S. Military in Kuwait. As a result
        of the bribes, the companies allegedly received approximately $21 million from
        contracts to deliver bottled water and to erect security fencing for DOD in Kuwait
        and Iraq. In exchange, one of the Army Majors are alleged to have received more
        than $2.8 million in money and other valuable items from Hall. DOD paid Hall
        approximately $6.4 million. Hall allegedly paid the other Army Major at least
        $200,000 in exchange for these and other official acts. (Civilian Contractor, U.S.
        Army Major, and His Wife Indicted for Alleged Bribe Scheme Involving Contracts
        at Camp Arifjan in Kuwait, 5/6/2009)

    		 U.S. Army Captain Bryant Williams was charged in an indictment for allegedly
        steering more than $500,000 in U.S. Army contracts to favored contractors in
        exchange for tens of thousands of dollars in bribe payments while he was



  The National Procurement Fraud Task Force was formed in October 2006 to promote the early detection,
identification, prevention, and prosecution of procurement fraud associated with the increase in
Government contracting activity. The National Procurement Fraud Task Force includes the U.S.
Attorney’s Office, the Federal Bureau of Investigation, the Inspectors General Investigative Services
community [that is, DCIS], and a number of other Federal law enforcement agencies.

                                                  39

     stationed in Baghdad, Iraq, serving as a procurement officer. As such, Williams’
     duties included participating in the solicitation of bids, assisting in the selection of
     contractors, and overseeing the administration and completion of U.S. Army
     contracts that were worth between $2,500 and $200,000. Williams unlawfully
     demanded and accepted tens of thousands of dollars in bribe payments in
     exchange for abusing his position to steer more than $500,000 in U.S. Army
     contracts to favored contractors. (Manhattan U.S. Attorney Charges U.S. Army
     Captain With Accepting Bribes While Stationed in Iraq, 8/17/2009)

  	 A former U.S. Army contracting officer, John Cockerham, was responsible for
     awarding contracts for services to be delivered to troops in Iraq, including bottled
     water. In return for awarding the contracts, he received more than $9 million in
     bribe proceeds. Once Cockerham agreed to take money in exchange for awarding
     contracts, he directed the contractors to pay his wife and sister, among others, in
     order to conceal the receipt of bribe payments. (Army Officer, Wife, and Relative
     Sentenced in Bribery and Money Laundering Scheme Related to DOD Contracts
     in Support of Iraq War, 12/2/2009)

Oversight and Surveillance
  	 Wallace A. Ward, a former Kellogg, Brown, and Root employee, conspired to
     accept payments from drivers, who in fact were selling their fuel to parties outside
     the airfield, in return for providing the drivers with false documents showing that
     the truckloads of fuel had been delivered to the airfield. According to the
     indictment, more than 80 truckloads of fuel were diverted for sale outside the
     airfield between May and September 2006, involving more than 784,000 gallons
     of fuel valued at more than $2.1 million. (Former Kellogg, Brown, and Root
     Employee Sentenced for Scheme to Defraud the U.S. Department of Defense,
     4/11/2008)

  	 AEY Inc., Efraim Diveroli, David Packouz, Alexander Podrizki, and Ralph
     Merrill were indicted by a Federal grand jury on wide-ranging fraud charges in
     connection with their provision of ammunition to Afghanistan. Mr. Diveroli was
     charged with making false statements to the U.S. Army regarding the country of
     origin of the ammunition. AEY was required to certify that it was providing
     serviceable and safe ammunition to Afghanistan. The contract prohibited delivery
     of ammunition acquired, directly or indirectly, from a Communist
     Chinese military company. The indictment alleges that the defendants submitted
     false Certificates of Conformance to the Army attesting that the ammunition they
     were providing was manufactured and originated in Albania, when, in fact, the
     ammunition came from China. To accomplish this, the defendants Efraim
     Diveroli, David Packouz, and Alexander Podrizki would direct others to assist in
     the packaging of ammunition to be delivered to Afghanistan, and would provide
     instructions to remove Chinese markings from containers in order to conceal that
     the ammunition was manufactured and originated in China. (Munitions Supplier,
     His Company, and Others Indicted for Lying to Army on Government Munitions
     Contract, 6/20/2008)

                                           40


  	 Raschad L. Lewis, a former fuel section employee of Kellogg, Brown, and Root,
     conspired to accept payments from drivers, who in fact were selling their fuel to
     parties outside the airfield, in return for providing the drivers with documents
     falsely showing that the truckloads of fuel had been delivered to the airfield.
     According to evidence presented in court, more than 48 truckloads of fuel were
     diverted for sale outside the airfield between May and September 2006, valued at
     more than $800,000. (Former Military Contractor Sentenced for Participating in
     Scheme to Steal Large Quantities of Fuel from U.S. Army in Afghanistan,
     8/21/2009)

Property Accountability
  		 Harith Al-Jabawi and U.S. Army Chief Warrant Officer, Joseph Crenshaw, were
      charged with participating in a scheme to steal fuel from Camp Liberty in
      Baghdad, Iraq. Al-Jabawi was only capable of obtaining fuel from Camp Liberty
      if a uniformed military personnel assisted him. Crenshaw assisted Al-Jabawi to
      the fuel depot several times. In exchange, Mr. Crenshaw received several
      thousand dollars. Al-Jabawi and Crenshaw were charged with conspiracy to bribe
      a public official. Al-Jabawi was also charged with making false statements to the
      Department of Defense in order to gain access to U.S. military installations in
      Iraq. (U.S. Government Contractor Arrested for Participating in Scheme to Steal
      Fuel From Camp Liberty, Baghdad, Iraq, 7/8/2008)

  	 Lee William Dubois, a former DOD contractor, pleaded guilty to using
     fraudulently obtained documents to enter the Victory Bulk Fuel Point in Camp
     Liberty, Iraq, and presented false fuel authorization forms to steal aviation and
     diesel fuel for subsequent sale on the black market. To retrieve and transport the
     stolen fuel from the Victory Bulk Fuel Point, Dubois admitted he and his co­
     conspirators employed approximately 10 individuals to serve as drivers and
     escorts of the trucks containing the stolen fuel. These individuals were able to
     enter the Victory Bulk Fuel Point illegally by using Government-issued common
     access cards that were falsely obtained. Dubois and his co-conspirators stole
     approximately 10 million gallons of fuel worth approximately $39.6 million.
     Dubois received at least $450,000 in personal profits from the subsequent sale of
     the fuel on the black market. Co-conspirators Robert Jeffery, Robert Young, and
     Michel Jamil received more than $1 million in personal profits. (Former
     Department of Defense Contractor Sentenced for Participation in Scheme to Steal
     Fuel From U.S. Army in Iraq, 8/25/2009 (Dubois, Jeffery, Jamil, Young)




                                         41


                   Table C-1. DCIS Prosecuted Investigations From 

                       October 1, 2007 Through April 1, 2010 

        Case Names             Date       Source      Oversight and     Property
                                         Selection     Surveillance   Accountability
Ward                           4/11/2008                   X
AEY Inc., Diveroli,            6/20/2008                   X
Packouz, Podrizki, Merrill
Al-Jabawi, Crenshaw             7/8/2008                                    X
Wilkinson, Cartwright          7/29/2008           X
Momon                          8/13/2008           X
West, Boyd, Ramin, Ramin,      8/27/2008           X
Alam, Bahkshi, Northern
Reconstruction Organization,
and Naweed Bahkshi
Company
Long                           2/19/2009           X
Cobos, Azar, Sima Salazar       4/9/2009                   X
Group
Hall                            5/6/2009           X

AZ Corporation, Top’s          6/19/2009                   X
Construction
Cliffton                        8/7/2009           X
Williams                       8/17/2009           X
Lewis                          8/21/2009                   X

Dubois, Jeffery, Jamil,        8/25/2009                                    X
Young
Lodin, Farooqi                 11/13/2009          X

Jeffery, Young, Dubois,        11/30/2009                                   X
Jamil
Cockerham, Cockerham,          12/2/2009           X
Blake, Pettaway
Murray                         12/16/2009          X

Schmidt                         3/4/2010           X




                                            42


Ongoing Investigations
DCIS groups the investigations into three predominant investigative categories for the
Global War on Terror Investigations: Public Corruption; Procurement Fraud; and Theft
and Technology Protection. Public Corruption includes bribery, gratuities, and conflicts
of interest. Procurement Fraud includes false claims and statements, undelivered
products, defective products, and cost/labor mischarging. Theft and Technology
Protection includes theft of funds, property, equipment, and supplies, and export
violations (U.S. technology and vehicles).

              Table C-2. DCIS Open Investigations as of December 31, 2009

    Predominant Investigative           Number                 Subject Types
   Category for Global War on           Ongoing
      Terror Investigations
Public Corruption
                                         94               U.S. and foreign contractor
- Bribery                                                  personnel, U.S. Military,
- Gratuities                                                Government personnel
- Conflicts of interest
Procurement Fraud                        88
- False claims and statements                             U.S. and foreign contractor
- Undelivered products                                     personnel, U.S. Military,
- Defective products                                        Government personnel
- Cost/labor mischarging

Theft and Technology Protection           38
- Theft of funds, property,                               U.S. and foreign contractor
equipment, and supplies                                    personnel, U.S. Military,
- Export violations: U.S. technology                        Government personnel
and vehicles

Miscellaneous                              9
- Terrorism-Related Acts                                U.S. contractor personnel, U.S.
                                                        Military, Government personnel




                                           43


Appendix D. Fraud Indicators in the
Contracting Process
The need to maintain high ethical standards and procurement integrity is always
important for DOD contracting officers; however, this requirement can be challenging in
a deployed environment where the expectations and business habits of suppliers may be
affected by varying cultural, political, and economic conditions. Additionally, the
pressures to meet mission requirements can be even more intense in a contingency
contracting environment.

Fraud is the misrepresentation of a material fact with the intent to deceive. Fraud may
occur at any stage in the Federal Government procurement process. Although poor
management decisions or negligence may lead to indications of fraud, the difference
between fraud and negligence is intent.

Common fraud offenses include:
   bribery, kickbacks, and gratuities;
   making or using a false statement;
   falsely making or altering a document;
   making or presenting a false claim;
   companies conducting business under several names;
   collusive bidding;
   conflict of interest;
   conspiracy to defraud;
   disclosure of proprietary source selection sensitive information;
   insufficient delivery of contracting items; and
   failure to meet specifications.

Requirements Fraud Indicators
The potential for fraud is created when the need assessment is not adequately or
accurately developed. Sloppy or carelessly written specifications make it easy for a
contractor to overcharge or deliver less than expected. Fraud indicators regarding
requirements definition include, but are not limited to, the Government:
    failing to state requirements functionally to the maximum extent possible
       (specifications that are vague make it difficult to reasonably compare estimates);
    defining statements of work and specifications to fit products or capabilities of a
       single contractor, which effectively excludes competition;
    splitting requirements to use simplified acquisition procedures in order to avoid
       review and approval; and
    modifying the contract shortly after award in order to make material changes in
       the requirements or statement of work.




                                            44


Contract Documentation Fraud Indicators
Dishonest individuals may attempt to hide evidence of fraudulent activity by omitting
certain documents from a contract file or including outdated information. Fraud
indicators relating to contract documentation include, but are not limited to:
    		 a pattern of missing documents or documentation with outdated information in the
        contract file;
     contract documents that are altered, backdated, or modified to cover deficiencies;
     contract awards made without adequate documentation of all pre-award and
        award actions; and
     invoices that do not have adequate supporting documentation or supporting
        documentation is incomplete.

Contract Type Fraud Indicators
In a fixed-price contract, the risk of performance falls on the contractor. Cost-
reimbursement contracts shift the risk of performance to the Government and the
contractor agrees to provide its best effort to complete the contract requirements. The
high risk to the Government in cost-reimbursement contracts may provide an opportunity
for fraud to occur.

Source Selection Fraud Indicators
The contracting officer is required to select the proposal that represents the best value to
the Government. While the contract award process has been designed to efficiently
ensure the delivery of goods and services, the complex procedures involved in source
selection may provide an opportunity for fraud to exist. The fraud indicators relating to
source selection include, but are not limited to:
    		 improper relationships between Government and contractor personnel;
    		 the Government’s failure to perform market research to determine evaluation
        factors, contracting method, or whether commercial items or nondevelopmental
        items would meet the Government’s needs;
     the Government restricting procurement to exclude or hamper any qualified
        contractor;
     the Government revealing information about procurements to one contractor that
        is not revealed to another;
     the Government accepting late or nonresponsive proposals, or accepting proposals
        from nonresponsible offerors;
     the Government improperly disqualifying offerors;
     the Government exercising favoritism towards a particular contractor during the
        evaluation process;
     the Government awarding contracts to contractors with poor records of
        performance;
     the Government awarding contracts that include items other than those contained
        in the bid specifications; and
     the Government’s approval of a justification for less than full and open
        competition based on improper reasons or inaccurate facts.



                                            45


Contract Pricing Fraud Indicators
Contracting officers must purchase supplies and services at fair and reasonable prices.
Failure to implement procedures to obtain fair and reasonable prices may create
opportunities for fraudulent activities, including kickbacks, bribes, and gratuities, that
may be unknowingly included in the contract price. Fraud indicators relating to contract
pricing include, but are not limited to:
     the Government not preparing estimates or preparing estimates after solicitations
        are requested,
     the Government and contractor utilizing unqualified personnel to develop cost or
        pricing data used in estimates,
     government estimates and contract award prices are consistently very close,
     the Government approves items that are of lesser value but the contract cost is not
        reduced, and
     the contractor issuing an engineering change proposal soon after the award of a
        contract.
Collusive bidding, price fixing, or bid rigging are commonly used as interchangeable
terms that describe illegal anti-competitive activity. These are activities that involve
agreements or informal arrangements among competitors to limit competition. Indicators
of these anti-competitive activities include: the existence of fewer than five bidders,
constant winners, constant losers, and close groupings of final bid prices.

Oversight and Surveillance Fraud Indicators
Shortages in quality assurance and surveillance staffing is a major challenge to DOD.
The increasing level of contract support along with urgencies of the war efforts has
spread the availability of quality assurance and surveillance staff thin. Failure to properly
monitor contract performance enables fraud. Fraud indicators related to contract
oversight and surveillance include, but are not limited to:
     contractors awarding subcontracts to unsuccessful bidders;
     the Government providing materials or services to contractors even though
       contractors are being paid to provide the materials or services;
     the administrative contracting officer approving modifications;
     contractors failing to meet terms but no compliance efforts are undertaken;
     the Government certifying receipt of goods without performing inspections;
     the user frequently complaining of poor quality of supplies or services provided
       under a contract—this may indicate that contractors are delivering something less
       than what you are paying for; and
     the Governments’ failure, untimely, or inappropriate closeout of contracts.

Inherently Governmental Fraud Indicators
Contractors performing inherently Governmental functions can increase the
Government’s exposure to fraud. Fraud indicators relating to inherently Governmental
functions include, but are not limited to:
    Increased workloads and responsibilities that prohibit ongoing DOD monitoring
       of each contractor’s work; and
    Contractors certifying payments for vendor goods, services, or salaries.



                                             46

Property Accountability Fraud Indicators
DOD continues to face ongoing challenges with its ability to accurately account for,
monitor, and report inventory amounts. Fraud indicators relating to property
accountability include, but are not limited, to:
    inadequate management oversight and physical inventory control;


    unreliable property inventory data; 

    inventory records disclose unusual patterns when compared to physical inventory 

       reviews that cannot be reasonably explained;


    inventory items marked with incorrect disposal condition codes, such as 

       repairable or scrap, when they should be labeled excellent; and


    failure to return Government-furnished equipment.



Award Fee Fraud Indicators
The amount of award fee a contractor earns is based on the contractor’s overall cost,
schedule, and technical performance measured against contract requirements. Collusion
between the contractor and Government personnel may result in unwarranted high award
fee payments. Fraud indicators relating to award fees include, but are not limited to:
     failure to properly document contractor performance;
     the fee determining official’s failure to properly document award fee
       determinations that differ from Award Fee Review Board recommendations; and
     the award fee granted is not reflective of the contract oversight and surveillance
       assessments.

Financial Management Fraud Indicators
One of the most common abuses found in the procurement system is cost mischarging.
This is due in large part to the fact that many high-dollar Government research and
development and service contracts are awarded as cost-type contracts. Mischarging can
occur in a number of situations, with a variety of results. Fraud indicators relating to
financial management include, but are not limited to:
     the contractor submitting invoices or claims without detail or supporting
        documentation to the Government;
     the Government paying contractors twice for the same items or services without
        an attempt to recoup the overpayments;
     the Government not regularly reconciling contract payments, daily transactions,
        and inventory;
     the contractors’ failure to correct known system deficiencies;
     contractors or suppliers complaining that they are not being paid in a timely
        manner—this may indicate fraudulent manipulations and diversion of 

        Government resources through supply or finance operations; and 

     the Government’s failure to deobligate funds. 





                                           47


Appendix E. Commission on Wartime
Contracting Interim Report and DOD’s
Response
In 2008 Congress established the COWC in Iraq and Afghanistan in response to
increasing indications of widespread waste, fraud, and abuse in Government
contracting. The COWC Interim Report, entitled “At What Cost-Contingency
Contracting in Iraq and Afghanistan,” to Congress was issued in June 2009, and can
be accessed online at
www.wartimecontracting.gov/docs/CWC_Interim_Report_At_What_Cost_06-10­
09.pdf. The COWC Interim Report addresses problems in our system of framing,
managing, and overseeing contracts that support American military, diplomatic, and
reconstruction activities. Among other findings, the COWC Interim Report
identified eight issues of immediate concern.

To evaluate the COWC Interim Report, DOD created the Task Force on Wartime
Contracting. DOD engaged multiple stakeholders to analyze the COWC Interim
Report, focusing on the COWC issues of immediate concern. DOD’s response
contains three sections: Section 1 is background and accomplishments, Section II
addresses the COWC Interim Report’s eight issues of immediate concern, and
Section III addresses additional issues raised in the COWC Interim Report. This
appendix summarizes DOD’s response to the COWC eight issues of immediate
concern. The complete DOD response can be accessed at
www.acq.osd.mil/dpap/pacc/cc/docs/TFWC_Rpt_to_USD.pdf.

Section I: DOD’s Related Accomplishments
DOD has dedicated considerable effort to improving contracting in expeditionary
operations. Specifically, DOD has done the following:

   1) Issued clear guidance in doctrine, instructions, regulations, and policy to provide
      consistent ground rules for both the operational and support communities. DOD
      established organizational approaches that work for the warfighter.

   2) Established two primary points of contact for theater support needs.

       a.	 The Director, Defense Procurement and Acquisition Policy, has a dedicated
           team of contingency contracting professionals, and
       b.	 The Assistant Deputy Under Secretary of Defense (Program Support) supports
           the program management community engaged in operational contract support.

   3)		 Consolidated all its theater support-contracting mission under the Army Materiel
        Command, with its subordinate command—the Expeditionary Contracting
        Command—tasked with primary execution.


                                           48

   4)		 DOD implemented tools and electronic solutions as shown in the examples
        below:

       a.		 An extensive array of tools and electronic solutions—both implemented and
            in development—to optimize the acquisition process for operational contract
            support of the warfighter.

                  		 The Joint Contingency Contracting Handbook is an existing tool
                      that is regularly updated.
                  		 Second edition of the handbook includes Web site availability for
                      immediate use and DOD can update the Web site in real-time with
                      any new procedures and guidelines.
                  		 The handbook is used as a foundation for the Defense Acquisition
                      University course, Contingency Contracting (CON 234).

       b.		 Robust set of training materials—including formal classroom courses,
            continuous learning modules, and handbooks—to prepare contracting, as well
            as noncontracting, personnel to manage contract support in contingency
            operations.

Section II: Addresses the COWC’s Eight Issues of
Immediate Concern
The COWC Interim Report contains 55 observations; approximately two-thirds (35)
relate directly to the 8 issues of immediate concern. The remaining one-third (20) are
ancillary (do not directly correlate to an issue of immediate concern). Of the
35 observations, the Department already had significant initiatives underway addressing
94 percent of those observations. The following table is the Task Force’s analysis of
these 35 COWC observations, which directly tie to the COWC issues of immediate
concern. The scorecard information is grouped by DOD progress, and then presented in
the order in which the COWC observation appears in the COWC Interim Report. The
related COWC issues of immediate concern also appear in the scorecard, replicated here.
The DOD response can be accessed from the Internet link provided at the end of the
second paragraph of this appendix. The Scorecard is on pages vii through viii of the
Internet link.




                                           49


                                 Task Force’s Analysis of COWC Observations
  COWC
                                                                                           TFWC
 Issue of                                                                                               DoD       DoD
                                    COWC Observation                                       Team
Immediate                                                                                             Impetus   Progress
                                                                                           Lead
 Concern
            Business systems audits are not conducted in a timely manner.
   4        (Observation 16, COWC report page 28)
                                                                                            DCAA        +       On Track

            Contract audit functions require additional emphasis. (Observation 18,
   4        COWC report page 29)
                                                                                            DCAA        +       On Track

            GAO has identified savings obtainable through greater LOGCAP
   3        efficiency. (Observation 26, COWC report page 47)
                                                                                            USA         +       On Track

            DCAA has identified unnecessarily high spending. (Observation 27,
   3        COWC report page 48)
                                                                                            USA         +       On Track

            Lessons learned in closing and transitioning bases in Iraq indicate needs
            for: (1) comprehensive transition guidance, (2) a way to synchronize
   1        requirements, (3) a better mechanism to terminate contracts for providing        J-4        +       On Track
            support on the base, and (4) synchronization of operations and logistical
            support. (Observation 29, COWC report page 50)

            Work in the pipeline may be unnecessary. (Observation 30, COWC
   1        report page 51)
                                                                                             J-4        +       On Track

            Disposition of property will require a number of decisions. (Observation
   1        31, COWC report page 55)
                                                                                             J-4        +       On Track

            Private security contractor incidents initiated reform. (Observation 35,
   8        COWC report page 63)
                                                                                          ADUSD(PS)     +       On Track

            Legislative remedies are improving security contract management.
   8        (Observation 36, COWC report page 64)
                                                                                          ADUSD(PS)     +       On Track

            There has been a significant decline in incidents involving the use of
   8        force by State Department private security contractors since 2007.            ADUSD(PS)     +       On Track
            (Observation 37, COWC report page 66)
            The government must ensure that security contractor source selection
   8        under multiple-award IDIQ contracts is truly based on best-value              ADUSD(PS)     +       On Track
            analysis. (Observation 38, COWC report page 67)
            Legal accountability for security contractors remains unresolved in Iraq.
   8        (Observation 39, COWC report page 68)
                                                                                          ADUSD(PS)     +       On Track

            Inconsistent rules of engagement and use of force impact security
   8        posture. (Observation 42, COWC report page 72)
                                                                                          ADUSD(PS)     +       On Track

            The contingency contracting workforce remains understaffed.
   2        (Observation 1, COWC report page 8)
                                                                                            DPAP        +       Challenges

            Training for military CORs is often inadequate. (Observation 4, COWC
   2        report page 11)
                                                                                            DPAP        +       Challenges

            Data systems are inadequate to measure contingency contracting
   2        activity. (Observation 6, COWC report page 14)
                                                                                            DPAP        +       Challenges

            Contingency contracting lessons learned are not shared effectively.
   6        (Observation 8, COWC report page 17)
                                                                                             J-4        +       Challenges

            Ineffective contractor business systems increase the likelihood of waste.
   4        (Observation 15, COWC report page 27)
                                                                                            DCMA        +       Challenges

            Contracting officials make ineffective use of contract withhold provisions.
   4        (Observation 19, COWC report page 31)
                                                                                            DCMA        +       Challenges

            Subcontractor cost-control management is ineffective. (Observation 21,
   5        COWC report page 34)
                                                                                            USA         +       Challenges

            Both LOGCAP program management and contracting offices have been
   3        chronically understaffed. (Observation 22, COWC report page 41)
                                                                                            USA         +       Challenges

            Other oversight staffing shortages also exist. (Observation 25, COWC
   2        report page 44)
                                                                                            DPAP        +       Challenges

            Regular efficiency reviews are needed. (Observation 28, COWC report
   3        page 49)
                                                                                            USA         +       Challenges




                                                                  50


  COWC
                                                                                         TFWC
 Issue of                                                                                              DoD            DoD
                                   COWC Observation                                      Team
Immediate                                                                                            Impetus        Progress
                                                                                         Lead
 Concern
            Far-flung bases and rotating units exacerbate the property
       6    management problem in Afghanistan. (Observation 34, COWC report                J-4           +          Challenges
            page 58)

            Subject-matter-expert support is insufficient to oversee static security
       2    services. (Observation 40, COWC report page 70)
                                                                                          DPAP           +          Challenges

            Ineffective contractor oversight risks contract noncompliance.
       2    (Observation 41, COWC report page 71)
                                                                                          DPAP           +          Challenges


            The time from requirement identification to notice to proceed is too
       3    long. (Observation 33, COWC report page 58)
                                                                                           USA           +          Challenges

            Management of the Armed Contractor Oversight Directorate in
       8    Afghanistan poses potential conflict of interest. (Observation 43,         ADUSD(PS)         +          Challenges
            COWC report page 73)

            Oversight of contractor weapons possesion requires enahancement.
       8    (Observation 44, COWC report page 74)
                                                                                       ADUSD(PS)         +          Challenges


            There are often inadequate numbers of qualified CORs assigned to
       2    contractor oversight in Iraq and Afghanistan. (Observation 2, COWC            DPAP                  Major Challenges
            report page 9)

            COR appointments are not increasing with the requirements.
       2    (Observation 3, COWC report page 10)
                                                                                          DPAP                  Major Challenges


            Lack of resources within DCAA is a significant factor contributing to
       4    ineffective audit coverage. (Observation 5, COWC report page 13)
                                                                                          DCAA           +        Major Challenges

            Lack of CORs is particularly acute for LOGCAP. (Observation 23,
       2    COWC report page 42)
                                                                                          DPAP           +        Major Challenges

            More logistics subject-matter experts are needed. (Observation 24,
       2    COWC report page 43)
                                                                                          DPAP           +        Major Challenges

            Understaffing severly impedes effeicient and effective execution of the
       2    logistics mission. (Observation 32, COWC report page 57)
                                                                                          DPAP           +        Major Challenges

                                                                 Total

                                                                                                         33         29 Traction
 8 Issues   35 Observations                                                              8 Teams      Proactive       6 Major
                                                                                                     2 Reactive     Challenges


Key:
            Why We Are Engaged                                                          How We Are Progressing
              Proactive/Independent: DoD self-initiated activity
   +                   (independent of COWC report)
                                                                                          On track: DoD making good progress

                                                                                       Challenges: DoD making progress by facing
   -              Inactive: DoD not engaged in an initiative
                                                                                                      challenges

              Reactive/Dependent: DoD initiative begun in
                         response to COWC report
                                                                                          Major Challenges: DoD not gaining
                                                                                                   sufficient traction




                                                                  51


Section III: Additional Issues Raised by the COWC
Interim Report
This section provides an overview of the ancillary observations in the COWC Interim
Report. The 20 ancillary observations fall into four broad categories (or focus areas)
outside the eight issues of immediate concern:

   a.   inherently governmental (2 observations),
   b.   operational contract support (3 observations),
   c.   oversight community (4 observations), and
   d.   reconstruction (11 observations).

The complete information on these issues is detailed in DOD’s response found in the
COWC Interim Report in Section III, pages 85 through 88; the Internet link to the report
is www.acq.osd.mil/dpap/pacc/cc/docs/TFWC_Rpt_to_USD.pdf.




                                            52


Appendix F. DOD Inspector General Reports
We reviewed 32 Audit reports and 2 SPO reports related to contracting in contingency
operations with the primary focus being on work done in Iraq and Afghanistan. All audit
reports can be found online at http://www.dodig.mil/Audit/reports/index.html.

Audit Reports
DOD IG Report No. D-2010-049, “U.S. Army Corps of Engineer’s Use of Award Fees
on Contracts in Iraq and Afghanistan,” April 1, 2010

DOD IG Report No. D-2010-046, “Contracting for Tactical Vehicle Field Maintenance at
Joint Base Balad, Iraq,” March 3, 2010

DOD IG Report No. D-2010-042, “DOD Obligations and Expenditures of Funds
Provided to the Department of State for the Training and Mentoring of the Afghan
National Police,” February 9, 2010

DOD IG Report No. D-2010-037, “Internal Controls Over United States Marine Corps
Commercial and Miscellaneous Payments Processed Through the Deployable Disbursing
System,” January 25, 2010

DOD IG Report No. D-2010-035, “Defense Logistics Agency Contracts for M2 Machine
Gun Spare Parts in Support of Operations in Southwest Asia,” January 11, 2010

DOD IG Report No. D-2010-027, “Army’s Management of the Operations and Support
Phase of the Acquisition Process for Body Armor,” December 8, 2009

DOD IG Report No. D-2010-022, “Management of Nontactical Vehicles in Support of
Operation Iraqi Freedom,” November 20, 2009

DOD IG Report No. D-2009-114, “Transition Planning for the Logistics Civil
Augmentation Program IV Contract,” September 25, 2009

DOD IG Report No. D-2009-109, “Contracts Supporting the DOD Counter
Narcoterrorism Technology Program Office,” September 25, 2009

DOD IG Report No. D-2009-108, “U.S. Air Forces Central War Reserve Materiel
Contract,” September 23, 2009

DOD IG Report No. D-2009-102, “Price Reasonableness Determinations for Contracts
Awarded by the U.S. Special Operations Command,” September 18, 2009

DOD IG Report No. D-2009-100, “Afghanistan Security Forces Fund Phase III -
Accountability for Equipment Purchased for the Afghanistan National Police,”
September 22, 2009


                                          53

DOD IG Report No. D-2009-099, “Afghanistan Security Forces Fund Phase III-
Accountability for Equipment Purchased for the Afghanistan National Army,” August 12,
2009
DOD IG Report No. D-2009-091, “Information Operations Contracts in Iraq,” July 31,
2009

DOD IG Report No. D-2009-095, “Contracting for Transportation Services for U.S.
Army Corps of Engineers, Gulf Region Division,” July 29, 2009

DOD IG Report No. D-2009-096, “Contracts for the U.S. Army’s Heavy-Lift VI Program
in Kuwait,” July 28, 2009

DOD IG Report No. D-2009-085, “Contracting for Nontactical Vehicles in Support of
Operation Enduring Freedom,” June 8, 2009

DOD IG Report No D-2009-083, “Logistics Support Contracting for the United States
Special Operations Command,” May 28, 2009

DOD IG Report No. D-2009-075, “Afghanistan Security Forces Fund Phase III-
Accountability for Weapons Distributed to the Afghanistan National Army,” May 21,
2009

DOD IG Report No. D-2009-076, “Afghanistan Security Forces Fund Phase III-U.S.
Army Corps of Engineers Real Property Accountability,” April 14, 2009

DOD IG Report No. D-2009-046, “Procurement and Delivery of Joint Service Armor
Protected Vehicles,” January 29, 2009

DOD IG Report No. D-2009-041, “Expeditionary Fire Support System and Internally
Transportable Vehicle Programs,” January 14, 2009

DOD IG Report No. D-2009-007, “Procurement and Use of Nontactical Vehicles at
Bagram Air Field, Afghanistan” October 31, 2008

DOD IG Report No. D-2008-135, “Requiring Radio Frequency Identification in
Contracts for Supplies,” September 29, 2008

DOD IG Report No. D-2008-119, “Construction Contracting Procedures Implemented by
the Joint Contracting Command-Iraq/Afghanistan,” September 29, 2008

DOD IG Report No. D-2008-107, “Contracts Issued by TACOM Life Cycle Management
Command to BAE Systems Land and Armaments, Ground Systems Division,” July 3,
2008

DOD IG Report No. D-2008-097, “Hurricane Relief Effort Costs on the Navy
Construction Capabilities Contract,” May 23, 2008

                                         54

DOD IG Report No. D-2008-098, “Internal Controls Over Payments Made in Iraq,
Kuwait, and Egypt,” May 22, 2008

DOD IG Report No. D-2008-067, “DOD Procurement Policy for Body Armor,”
March 31, 2008

DOD IG Report No. D-2008-060, “Audit of Potable and Nonpotable Water in Iraq,”
March 7, 2008

DOD IG Report No. D-2008-038, “The Army’s Procurement and Conditional
Acceptance of Medium Tactical Vehicles,” December 21, 2007

DOD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase III,” November 30, 2007


SPO Reports
DOD IG Report No. SPO-2009-007, “Report on the Assessment of U.S. and Coalition
Plans to Train, Equip, and Field the Afghan National Security Forces,” September 30,
2009

DOD IG Report No. SPO-2009-006, “Assessment of the Accountability and Control of
Arms, Ammunition, and Explosives (AA&E) Provided to the Security Forces of
Afghanistan,” September 11, 2009




                                          55


 
 
    Department of Defense
  Office of Inspector General
     400 Army Navy Drive
      Arlington, VA 22202
This report is available online at:
         www.dodig.mil


                                                                              United States Department of Defense
                                                                              Office of Inspector General




                                                                               Contingency Contracting: A
                                                                                Framework for Reform
                                         DEPARTMENT OF DEFENSE
                                                                                       Report No. D-2010-059
                                               Hotline
 
                                  May 14, 2010
                                      1-800-424-9098 • DSN: 312-664-1151 ­

